<html>
<title> - SUPPORTING OUR INTERCOLLEGIATE STUDENT-ATHLETES: PROPOSED NCAA REFORMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 SUPPORTING OUR INTERCOLLEGIATE STUDENT-ATHLETES: PROPOSED NCAA REFORMS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2004

                               __________

                           Serial No. 108-91

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
93-982                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
ED WHITFIELD, Kentucky                 Ranking Member
BARBARA CUBIN, Wyoming               CHARLES A. GONZALEZ, Texas
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOHN B. SHADEGG, Arizona             SHERROD BROWN, Ohio
  Vice Chairman                      PETER DEUTSCH, Florida
GEORGE RADANOVICH, California        BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       BART STUPAK, Michigan
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
MARY BONO, California                KAREN McCARTHY, Missouri
LEE TERRY, Nebraska                  TED STRICKLAND, Ohio
MIKE FERGUSON, New Jersey            DIANA DeGETTE, Colorado
DARRELL E. ISSA, California          JIM DAVIS, Florida
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Friday, William C., President Emeritus, University of North 
      Carolina, Co-Chairman, Knight Foundation Commission on 
      Intercollegiate Athletics..................................     9
    McMillen, Hon. C. Thomas, Co-Chairman, President's Counsel on 
      Physical Fitness...........................................    15
    Renfro, Wallace, Senior Advisor to the President, National 
      Collegiate Athletic Association............................    15

                                 (iii)

  

 
 SUPPORTING OUR INTERCOLLEGIATE STUDENT-ATHLETES: PROPOSED NCAA REFORMS

                              ----------                              


                         TUESDAY, MAY 18, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:30 p.m., in 
room 2123 Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Barton (ex 
officio), Schakowsky, Towns, and Rush.
    Staff present: Chris Leahy, majority counsel and pocicy 
coordinator; David Cavicke, majority counsel; Brian McCullough, 
majority professional staff; Will Carty, legislative clerk; 
Chad Grant, staff assistant; Jonathan Cordone, minority 
counsel.
    Mr. Stearns. The subcommittee will come to order here.
    I am pleased to welcome you all to the Commerce, Trade, and 
Consumer Protection Subcommittee on supporting our 
intercollegiate student-athletes proposed NCAA reforms.
    Last March this subcommittee examined the NCAA's response 
to certain recruiting practice related to official campus 
visits by prospective student-athletes. Prompted by a number of 
high profile scandals involving recruiting practices at some 
NCAA Division I schools, the NCAA formed a task force to 
investigate abuses associated with recruitment visits and the 
institutional policies used by the NCAA member institution to 
enforce recruiting standards.
    According to them, 31 schools have been penalized for major 
recruiting violations since 2000. This constitutes a minority 
of NCAA members. However, the conduct of a few bad actors has 
highlighted the influence commercialism is having on amateur 
intercollegiate athletics.
    It also highlights the need for better enforcement of 
standards at member institutions. During our March hearing, the 
NCAA stressed the importance of having both rigorous recruiting 
and academic standards, along with commitment from member 
institutions to faithfully implement those standards and 
vigorously enforce them.
    I look forward to hearing about the progress made to date, 
as well as the NCAA's reform proposal concerning recruitment, 
academic performance standards that were recently approved.
    As consumers of college sports media, we all have an 
interest in insuring that our college student-athletes are not 
being exploited by growing commercial interest and by the 
unethical and immoral behavior of a few, particularly in those 
programs that generate large revenue streams from lucrative 
media and commercial contracts.
    As some have said, the play for pay atmosphere generated by 
these practices and policies has institutionalized the 
mentality of an ``arms race'' and de-emphasized academic 
performance and achievement.
    Colleagues, this is not acceptable. It is, therefore, my 
hope that rather than reacting to the headlines and the next 
big scandal, which will surely come, we can create a long-term 
vision for the future of amateur college sports that 
reestablishes an ``academics first culture,'' that also 
supports our student athletes' excellence on the field, court 
or track.
    For our college student-athletes, mental training should be 
as vigorous as physical training, for life after the game. 
According to the NCAA only 1.3 percent of senior NCAA 
basketball players make it to the pros, while only 2 percent of 
football players do so.
    Given the slim odds of making the big time in professional 
sports, we clearly need to insure that the sacrifice that these 
student-athletes make to pursue athletics do not compromise 
their opportunities to make the big time after graduation in 
business, academia, medicine, engineering, and so forth.
    To help move us forward toward a comprehensive long-term 
vision for intercollegiate athletics, I would like to thank the 
Knight Commission for their work in the area of college 
athletics reform. The Commission's model for intercollegiate 
athletics is there is a careful assessment. Their 
recommendation is to create an agenda of academic reform, de-
escalation of the athletic arms race, and de-emphasis of the 
commercialism as outlined in their 2001 reports.
    Now, frankly, these are solid steps toward a long-term plan 
which I think this country desperately needs.
    The subcommittee would also like to commend the NCAA for 
trying to get a handle on the problem facing athletics and 
their impact on our student athletes. Their work continues to 
be very helpful as we flesh out the issues facing recruiting 
and the academic form.
    I am also sure they would be the first to agree that more, 
of course, has to be done. Universities, too, must also bear 
responsibility for the conduct of their own athletic programs 
and the recruitment practices and policies that follow.
    Accountability requires the university to do their utmost 
to implement the NCAA standards in good faith and pursue 
vigorous enforcement.
    In conclusion, the big business of college athletics has 
changed forever the playing field for our Nation's student 
athletes. Gone are the days when college sports celebrated the 
amateur in athletes. An away game simply meant getting your 
studying done on the bus or in the bleachers between games or 
races.
    Today many of the pressures today are not only academic, 
but also financial and, as we have seen, institutional for 
these young people. It is incumbent upon us to see that the 
NCAA is fulfilling its mission. Schools are implementing and 
enforcing the NCAA standards properly, and those student 
athletes entering intercollegiate athletics today enjoy the 
benefit of a superb system of higher education, an education 
that prepares them for life, not just for the next game.
    And with that I recognize Ms. Schakowsky.
    [The prepared statement of Hon. Clifford Stearns follows:]

Prepared Statement of Hon. Clifford Stearns, Chairman, Subcommittee on 
                Commerce, Trade, and Consumer Protection

    Good morning. I am pleased to welcome all of you to the Commerce, 
Trade and Consumer Protection Subcommittee's hearing on ``Supporting 
Our Intercollegiate Student-Athletes: Proposed NCAA Reforms.''
    Last March this Subcommittee examined the NCAA's response to 
certain recruiting practices related to official campus visits by 
prospective student-athletes. Prompted by a number of high-profile 
scandals involving recruiting practices at some NCAA Division I 
schools, the NCAA formed a Task Force to investigate abuses associated 
with recruitment visits and the institutional policies used by NCAA 
member institutions to enforce recruiting standards. According to the 
NCAA, 31 schools have been penalized for major recruiting violations 
since 2000. This constitutes a minority of NCAA members; however, the 
conduct of a few bad actors has highlighted the influence commercialism 
is having on amateur intercollegiate athletics. It also highlights the 
need for better enforcement of NCAA standards at member institutions. 
During our March hearing, the NCAA stressed importance of having both 
rigorous recruiting and academic standards along with commitment from 
member institutions to faithfully implement those standards and 
vigorously enforce them. I look forward to hearing about the progress 
made to date as well as the NCAA's reform proposals concerning 
recruiting and academic performance standards that were recently 
approved.
    As consumers of college sports media, we all have a interest in 
ensuring that our college student-athletes are not being exploited by 
growing commercial interests and the unethical and immoral behavior of 
a few - particularly in those programs that generate large revenue 
streams from lucrative media and commercial contracts. As some have 
said, the ``play for pay'' atmosphere generated by these practices and 
policies has institutionalized the mentality of an ``arms race'' and 
deemphasized academic performance and achievement. This is not 
acceptable.
    It is therefore my hope that rather than reacting to the headlines 
and next big scandal, we can create a long-term vision for the future 
of amateur college sports that re-establishes an academics-first 
culture that also supports our student-athletes' excellence on the 
field, court, or track. For our college student-athletes, mental 
training should be as vigorous as physical training for life after the 
game. According to the NCAA, only 1.3% of senior NCAA basketball 
players make it to the pros while only 2% of football players do so. 
Given the slim odds of making the ``big time'' in professional sports, 
we clearly need to ensure that the sacrifices that these student-
athletes make to pursue athletics don't compromise their opportunities 
to make the ``big time'' after graduation--in business, academia, 
medicine, engineering, and so on.
    To help move us toward a comprehensive long-term vision for 
intercollegiate athletics, I would like to thank the Knight Commission 
for their work in the area of college athletics reform. The 
Commission's model for intercollegiate athletics deserves a careful 
assessment. Their recommendations to create an agenda of academic 
reform, de-escalation of the athletics arms race, and de-emphasis of 
the commercialism in intercollegiate athletics, as outlined in their 
2001 report, are solid steps toward the long-term plan we desperately 
need.
    The Subcommittee also would like to commend the NCAA for trying to 
get a handle on the problems facing intercollegiate athletics and their 
impact on our student-athletes. Their work continues to be very helpful 
as we flesh out the issues facing recruiting and the academic reform. 
I'm also sure they would be the first to agree that more has to be 
done. Universities too must also bear responsibility for the conduct of 
their own athletic programs and the recruitment practices and policies 
they follow. Accountability requires that Universities do their utmost 
to implement the NCAA standards in good faith and pursue vigorous 
enforcement.
    The big business of college athletics has changed forever the 
playing field for our nation's student athletes. Gone are the days when 
college sports celebrated the ``amateur'' in athlete and away games 
simply meant getting your studying done on the bus or in the bleachers 
between games or races. Today, many of the pressures today are not only 
academic but also financial and, as we have seen, institutional for 
these young people. And it is incumbent upon us to see that the NCAA is 
fulfilling its mission, schools are implementing and enforcing NCAA 
standards properly, and that those student-athletes entering 
intercollegiate athletics today enjoy the benefit of a superb system of 
higher education--an education that prepares them for life not just the 
next game.
    I would like to thank the representatives from the NCAA and Knight 
Commission for joining us today, and I look forward to their testimony.

    Ms. Schakowsky. Thank you, Mr. Chairman.
    I am happy that we are holding this hearing today to give 
us the opportunity to follow up on issues related to NCAA 
recruiting policies and also to learn more about academic 
reform proposals as they relate to Division I student athletes.
    I would like to thank our witnesses for being here today to 
help shed some light on those issues.
    We talked in the previous hearing on the NCAA about a 
problem with the culture in our top university athletic 
programs, a culture where alcohol and drugs are all too 
commonplace, a culture where abysmal graduation rates are the 
norm rather than the exception, a culture that tolerates 
violence against women.
    I am pleased that the NCAA recognizes that there is a 
problem and is working toward reform on issues surrounding 
recruiting trips and the academic performance of student 
athletes. However, I am concerned that some of the new 
proposals don't go far enough. For example, I am concerned that 
the proposed NCAA recruiting rules still fail to set standards 
regarding alcohol use and unsupervised entertainment of 
recruits and instead leave it up to individual institutions to 
make those rules.
    Before the final rules are approved, I hope that those 
issues will be revisited and standards adopted that really make 
the point that we tolerate nothing less than the best behavior 
for our student-athletes, just as we expect them from all of 
our students.
    Furthermore, I was alarmed to learn about the graduation 
rates of some of our elite student-athletes. I know we all 
agree that it's unacceptable when only 32 percent of the men's 
teams participating in the NCAA basketball tournament this year 
manage to graduate at least 50 percent of their players within 
6 years of their initial enrollment. I was shocked to learn 
that four teams failed to graduate a single player in 4 years.
    Statistics like these demand bold steps and comprehensive 
reform that truly holds school presidents, coaches, and 
institutions accountable for the education they are providing 
or failing to provide student-athletes.
    I am eager to hear more from Mr. Renfro about the NCAA's 
proposed academic reforms. I am also looking forward to hearing 
from Dr. Friday of the Knight Foundation Commission on 
intercollegiate athletics, a group that is committed to 
reforming college sports into a system with integrity and 
accountability.
    It is not just about making new rules that dictate what 
type of planes recruits can fly in or creating formulas that 
simply quantify academic progress rates. While those details 
are important, it is also important to remind ourselves about 
the real goal of reform, transforming college sports into a 
culture that fosters healthy and fun athletic competition while 
remaining focused on the academic success of student athletes 
and their development into honest and respectful adults.
    Thank you.
    Mr. Stearns. I thank the gentlelady.
    The chairman of the full committee, the gentleman from 
Texas, Mr. Barton.
    Chairman Barton. Mr. Chairman, I will waive my opening 
statement and just put it in the record.
    I do want to welcome the panel, especially former 
Congressman McMillen, a distinguished member of this body, and 
just make a comment on the graduation rates. At least in Texas 
the two schools that had tournament reps. in both the men and 
women's tournament, the women were a lot smarter. They 
graduated about 50 percent higher than the guys. That is a good 
thing for our Texas women.
    With that I yield back.
    [The prepared statement of Hon. Joe Barton follows:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Collegiate athletics play a significant cultural role in American 
society. Saturday afternoon college football games--whether at the alma 
mater or the local university--have become ritual gatherings enjoyed by 
friends, family, and classmates for years. The tradition and pageantry 
of New Year's Day parades used to be the highlight of many a school, 
host city, and the participants that signified the conclusion of a 
successful season.
    Unfortunately the shine is wearing off for some schools and the 
accomplishments of their athletes. Competition on the field is often 
overshadowed by problems off the field. Scandals involving collegiate 
athletes are increasingly a part of the weekly news. The fact that we 
know the problems exist means reform is overdue.
    The annual basketball championships produce enormous excitement for 
avid fans every March. In fact, so many people watch the basketball 
tournament that the current NCAA contract with CBS to televise the 
event is worth over $6 billion dollars for 11 years.
    This is great news for many collegiate athletes that benefit from 
the burgeoning pie the NCAA redistributes to its member schools. This 
revenue stream may cross-subsidize other sports at these schools. 
Unfortunately, the very same athletes that are essential to the success 
of the basketball tournament may be the least likely to benefit by 
earning an education and a degree. Division I men's basketball has the 
lowest graduation rate of any sport. Although women's basketball is 
better, some of the schools exhibit similar sub par graduation rates.
    This is not the first time in the history of collegiate sports 
there have been calls for reform. Our witnesses today can testify that 
some of the same arguments--commercialization and lowering academic 
integrity--have been made as far back as 1929. So are we tilting at 
windmills? Do we expect to make a few changes and then things will 
quiet down when the next season begins? I would like to think we are on 
the verge of doing something meaningful for collegiate sports.
    The NCAA's proposals to reform the recruiting process are a good 
first step. Additionally, the academic reforms approved a few weeks ago 
make perfect sense, but may not solve the problem because the 
fundamentals creating the problem are only getting worse.
    The bigger problem is that we as a society consume athletic events 
as fast as they can be served up. We need not go further than cable TV 
or the radio to find multiple, 24 hour all sports networks discussing 
collegiate athletics as well as professional sports. And the schools 
seem all too willing to provide us what we want, day and night. 
Basketball tournaments in Hawaii and Alaska, Thursday night football 
games, and basketball games every night of the week are all in pursuit 
of one objective: MONEY.
    The conference realignments are the best indication of why reforms 
need to occur. The ACC conference just signed a 7-year contract for 
football that is worth $257 million dollars and will require more 
Thursday night games. When schools undertake this money chase, they are 
approaching the same status as professional sports. Even more 
disturbing is that many of the athletic departments are adding fuel to 
the fire by applying this model to their other sports--without the 
revenue.
    The chase for money may prevail at some schools. Unfortunately, the 
schools that can't match the expenditures of their rivals will 
ultimately reduce, not increase, the opportunities for student athletes 
to compete in a sport they love.
    I yield back.

    Mr. Stearns. I thank the gentleman.
    And I now will ask you, the first panel and only panel, to 
come forward. We have Dr. William C. Friday, who is President--
oh, sorry. Mr. Towns.
    My distinguished colleague from New York, Mr. Towns, is 
recognized for an opening statement.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by thanking you for holding this hearing today 
on NCAA recruiting practices. College athletics play a an 
important role in helping thousands of young men and women into 
more responsible, caring adults. Sports teaches youngsters 
about the value of hard work, team play, and how to deal with 
life's adversities and challenges.
    We must insure that universities continue to nurture our 
student athletes in furtherance of these ideals and do not let 
them fall pray to financial and competitive pressures 
corrupting major college athletics.
    I have had a longstanding interest in insuring that 
academics remain an integral part of college athletics. Having 
been one of the authors of the Student-Athletes Right to Know 
Act, I would be remiss if I did not acknowledge my former 
member and friend of this body for his work in that regard, Tom 
McMillen, who also played a key role in passing this 
legislation.
    The law required all institutions of higher education to 
disclose their graduation rates for their respective athletic 
teams. This was an important step in holding universities 
accountable and informing student athletes about a school's 
commitment to helping them obtain a degree.
    However, some programs have been willing to live with the 
embarrassment of a virtual no percent graduation rate if it 
means one Final Four or another bowl championship appearance. 
So I am pleased that the NCAA Board of Directors adopted this 
landmark academic reform package by penalizing and rewarding 
universities for their student-athletes' academic successes and 
failures.
    Coaches and ADs may finally pay as much attention to 
student-athletes' work in the classroom as they do to their 
exploits on the field. While I had hoped that sunshine on 
school graduation rates would embarrass coaches into taking the 
type of action, this has not been the case unfortunately. And 
incentive or disincentive programs will end the lipservice to 
academic integrity that has persisted too long on our college 
campuses.
    I think these reforms are a critical step in the right 
direction. For those who say that we have no role in this 
process and should let the NCAA do its job, I remind everyone 
that the NCAA is made up of member institutions which receive 
billions of dollars from this institution. I strongly believe 
that Congress should not be in the business of regulating 
institutions of higher learning. However, I believe that we 
have a role in insuring that these institutions remain centers 
of higher learning, not business enterprises that make money on 
the backs of young athletes.
    So, again, Mr. Chairman, I applaud you and the ranking 
member for holding this hearing today, and I look forward to 
hearing from the witnesses because I think that we are now in a 
position where we need to do something about a very serious 
problem that exists out there that nobody now is talking about.
    Mr. Stearns. I thank the gentleman. I thank the gentleman.
    Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Chairman, I fully concur with the comments of my 
colleague from New York, my good friend, Mr. Towns.
    Mr. Chairman, I want to thank you for recognizing me, and I 
also want to thank you for holding this hearing. While I 
acknowledge the problems with recruiting techniques in college 
athletics as we reel by the recent scandals at the Universities 
of Alabama and Colorado, I would like to touch on a problem 
that has infected intercollegiate athletics for a long time, 
and that is the exploitation of student athletes, particularly 
African American student-athletes for the benefit of the 
university.
    Anyone who follows college sports knows that the 
recruitment of young athletes starts way before the senior year 
of high school. As was documented in the film ``Hoop Dreams,'' 
which took place in Chicago, talented young athletes are 
recognized and groomed for the college and even pro game at a 
very early age.
    The problem with such techniques is that the various 
schools who show interest in these young men, really just kids, 
really do not have the young athlete's best interest at heart. 
Instead, they are interested in elevating or maintaining their 
college athletic programs, which is a money maker for the 
different schools.
    Often what happens is that the school uses the talents of 
young athletes only to abandon them when their eligibility has 
expired. Too often these young men never end up even graduating 
from college. They never make it to the professional level, and 
their college experience has been a quick flash in the pan with 
nothing to show for it.
    Worse, this exploitation falls disproportionately hard on 
African American males. The disparity in graduation rates for 
whites and black athletes is really appalling. With a few 
notable exceptions, most schools have much lower graduation 
rates for African American athletes than they do for their 
white counterparts.
    Let me give you an example. This year's co-national 
champion in college football, Louisiana State University, only 
graduated 45 percent of their students, 34 percent of their 
black students, compared to 56 percent of the white students. 
This disparity is even troubling, extremely troubling given 
that the other co-national champion, the University of Southern 
California, graduated 61 percent of their black players 
compared with 60 percent of their white players.
    Mr. Chairman, as such, I would like the panel to address 
this troubling aspect of college sports and how reckless 
recruiting techniques contribute to this problem.
    Universities, as was mentioned by my colleagues, have a 
duty to nurture and educate our young people and not simply put 
them through a meat grinder for the school's coffers. This is 
especially true given that the vast majority of schools, 
whether they are public or private, they receive public funds, 
and these funds are contingent upon each individual school's 
policy, stated policy, that they would not discriminate.
    There is a nondiscrimination clause that exists for our 
colleges and universities across the Nation, particularly those 
that receive Federal funds.
    And, Mr. Chairman, I welcome our panel today, and I hope 
this hearing will address my concerns, and I want to thank you, 
and I yield back the balance of my time.
    Mr. Stearns. I thank the gentleman.
    [Additional statement submitted for the record follows:]

Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman, for holding this hearing. It provides the 
subcommittee with a valuable opportunity to follow up on our previous 
hearing regarding the NCAA by taking a close look at the academic 
reform proposals the NCAA Division I Board of Directors has 
recommended.
    I'd also like to thank the distinguished panelists who have joined 
us today. I am confident we will all benefit greatly from the 
institutional knowledge and pragmatic experience these gentlemen will 
share with us today.
    Just a short time ago, this Subcommittee came together to examine 
NCAA recruiting practices. We came away from that hearing with an 
understanding of the fact that many recruiting violations result from 
the fact that NCAA member institutions are simply beyond the scope of 
the NCAA's authority. I also cultivated a new respect for the goals of 
the NCAA. I truly believe this association is founded upon a desire to 
craft policies and regulations designed to protect collegiate athletes 
and guide their academic progress.
    A couple of months ago, the NCAA was under attack for the 
unacceptable behavior of some of its affiliated schools. I applaud the 
NCAA for acting so quickly and willingly to answer this national 
criticism by formulating a comprehensive academic reform proposal 
designed to hold institutions accountable for their student athletes' 
academic progress. If the governing body of intercollegiate athletics 
is actively concerned as to how athletes perform in the classroom, then 
it is certainly fair to expect the same oversight from individual 
universities.
    That said, we are here today to see what means the NCAA intends to 
employ to hold schools accountable for enforcing these new academic 
standards. The pressure of competition cannot be allowed to supercede a 
reasonable standard of academic progress. The NCAA and its member 
institutions must agree on a policy that ensures athletes will be aptly 
prepared to compete in America's workforce at the conclusion of their 
athletic careers.
    I thank the Chairman again and yield back the remainder of my time.

    Mr. Stearns. We will now have the panel come forward.
    Dr. William C. Friday, President Emeritus, University of 
North Carolina, Co-chairman, the Knight Foundation Commission 
on Intercollegiate Athletics, a former colleague of the 
Honorable C. Thomas McMillen, a member of the Knight Commission 
and, of course, also a former NBA, Co-chair of the President's 
Council of Physical Fitness and Rhodes Scholar, and Mr. Willy 
Renfro, Senior Advisor to the President, the National 
Collegiate Athletic Association.
    I thank all of you, and as Mr. Towns and Mr. Rush 
mentioned, these are critical for our students, and we are in 
competition right now with the Secretary of Defense. He is 
briefing all of the Democrats, both parties. So if you see lack 
of members here, it is not because we do not have an interest. 
I think as Mr. Towns and Mr. Rush have pointed out, who have 
been leaders in this area for many years, we have in this 
afternoon on a Tuesday, a very important subject, something 
that we fervently need to solve, and we are just very pleased 
that you are patient to come here in the afternoon and give 
your opening statement.
    So, Dr. Friday, thank you for coming, and we look forward 
to hearing what you have to say.

STATEMENTS OF WILLIAM C. FRIDAY, PRESIDENT EMERITUS, UNIVERSITY 
OF NORTH CAROLINA, CO-CHAIRMAN, KNIGHT FOUNDATION COMMISSION ON 
   INTERCOLLEGIATE ATHLETICS; ACCOMPANIED BY HON. C. THOMAS 
McMILLEN, CO-CHAIRMAN, PRESIDENT'S COUNSEL ON PHYSICAL FITNESS; 
  AND WALLACE I. RENFRO, SENIOR ADVISOR TO THE PRESIDENT, THE 
            NATIONAL COLLEGIATE ATHLETIC ASSOCIATION

    Mr. Friday. Mr. Chairman, Ranking Member Schakowsky, and 
other distinguished members of the group, I wish to submit for 
the record a complete set of the reports of the Knight 
Foundation's Commission on Intercollegiate Sports for your 
file.
    Mr. Stearns. By unanimous consent, so ordered.
    Mr. Friday. The integrity and character of our Nation's 
colleges and universities that play major sports, particularly 
football and basketball, are being eroded. This commission's 
current goals are the work to expose questionable practices and 
behavior, to propose solution to those practices, and to work 
in partnership with elected representatives of the National 
Collegiate Athletic Association, the Association of Governing 
Boards, coaches, administrators, and the media to bring about 
meaningful reform and to do so promptly.
    The commission's ultimate vision for athletics is that it 
be fully integrated into the university's institutional 
mission.
    Division IA football and Division IA basketball 
particularly are increasingly serving the mission of 
entertainment and institutional revenue generation, and before 
I comment on critical needs for reform, it's important to 
comment on some progress and hard work that's going on right 
now.
    In March, the Association of Governing Boards of this 
country issued a statement of policy for board of trustee 
representatives and responsibilities for intercollegiate 
athletics, what they are responsible for. Adoption by 
individual boards across the country is going to be monitored 
and will be measured by the end of the year.
    The Coalition on Intercollegiate Athletics and other groups 
organized by the faculties across this country are providing a 
much needed faculty voice on their own campuses because they 
have so much to do with this problem, and they are engaged in 
the national debate.
    The President and the Board of Directors of the NCAA have 
provided leadership in several ways, and especially in the 
recent academic reforms that have been proposed. Those reforms, 
packaged as they are and tied as they are to scholarship and 
post season participation are very constructive.
    This subcommittee's last hearing focused on recruiting 
practices and abuses, as events reported at some universities 
brought these problems to the forefront. The NCAA's recent 
discussions concerning the recruiting process further highlight 
the fact that current recruiting culture must change.
    Recruiting abuses, instances of academic fraud and 
excessive spending are the result of establishing winning, 
entertainment, and revenue generation as the most important 
goals of intercollegiate sports. Reform in recruiting is 
important, but there are several other critical areas also.
    Institutions have a moral obligation, we believe, to help 
every individual admitted as a student athlete to achieve 
success in completing a degree. The data that has just been 
referred to indicate that there is much room for improvement 
along these lines, particularly in Division I basketball.
    The Knight Commission reviewed the graduation rates, and as 
you have heard, the results of that study three of the Final 
Four teams, three of those four in that competition, graduated 
fewer than 30 percent of their athletes. I am convinced that 
the NCAA's revenue distribution plan that now rewards teams for 
the number of wins in the tournament without consideration of 
academic performance should be changed in a meaningful way.
    As the NCAA strengthens its continuing eligibility 
requirements and institutes penalties associated with poor 
academic performance, legitimate concerns over academic fraud 
have arisen. To address them, admission and academic support 
services for athletes should be conducted in the very same way 
all other academic processes are handled in the university.
    And further, faculty must fulfill their obligations as 
stewards of institutional academic integrity. The recent 
passage of the NCAA academic performance program which ties 
unacceptable academic performance to meaningful sanctions is a 
very strong step in the right direction. The standards 
established to trigger the penalties must be closely monitored 
to create improvement.
    Despite the tremendous growth in revenue generated by the 
post season events in Division IA football and Division I 
basketball, financial reports consistently indicate that a 
small percentage of institutions actually generate more revenue 
than expenses from their athletic departments.
    Indeed, Division IA as a whole has recorded expenses over 
revenues each of the past 10 years. Generating profit is not 
meant to be the goal of what should be done as an educationally 
related endeavor, nor, however, should reports of so-called 
profits be used to justify the current model.
    One reason expenses most often exceed revenue is the 
tremendous escalation in the salaries of football coaches and 
men's basketball coaches. Many coaches are paid in excess of $1 
million a year.
    Another reasons is that athletic facilities have been built 
with excesses that you may not be able to find in professional 
sports. As an example a West Coast university recently expanded 
its football stadium at a cost of over $90 million, including a 
locker room for its football team for $3.2 million. The extras 
in that locker room include a thumbprint activated safe box, 
Internet access, and an individual ventilating system for each 
player's locker.
    Often the debt incurred to build and expand existing 
athletic facilities is in the millions of dollars and growing. 
The arms race in intercollegiate athletics must stop.
    The NCAA is in the midst of a $6 billion, 11-year contract 
with CBS to television its Division I men's basketball 
tournament. The NCAA distributes this revenue primarily based 
on wins in the tournament and the size of institutions' overall 
athletic programs.
    The 2003 football post season bowl games, including the 
bowl championship series known as BCS, generated $181 million, 
90 percent of which was distributed to the six conferences that 
comprised the BCS alliance.
    It is also noteworthy that the BCS, its revenue 
distribution formula and its structure is managed completely 
independent of the NCAA governance system.
    The inequitable distribution of revenues generated by these 
events has caused an unprecedented 50 percent venue gap between 
the six conferences that originated the BCS and the remaining 
five Division I conferences. Revenue distribution formulas then 
must be changed if true reform is to be achieved.
    NCAA financial reports indicate that 75 percent of all 
expenditures in Division I men's athletics are for football and 
basketball. This allocation has remained consistent for the 
past 10 years, increasing from 50 percent of all men's athletic 
expenditures prior to that decade.
    Greater transparency, uniformity and accuracy in the fiscal 
reporting of FAR athletics are, therefore essential. As an 
example, in many cases significant costs associated with 
buildings and operating athletic facilities are not reported in 
the athletic department budget, thus calling into question the 
validity of even the few institutions that supposedly generate 
more revenue than expenses.
    Presidents and trustees must know that the true picture of 
athletic expenses to understand the real cost of athletics to 
an institution. Only then can a proper evaluation be made as to 
whether athletics are consuming too much of the institution's 
discretionary dollar without enhancing academics.
    This commission will have much to say on the financing of 
college sports with the release of a study we now have 
underway, and we will share it with you.
    Institutions have given away too much for television 
exposure and money also. One week during the last year's 
regular season college football was nationally televised for 
five consecutive nights, Tuesday through Saturday. This is not 
about students who participate and their needs. It is about 
show business and money.
    Further, networks dictate to institutions what hour of the 
day or night games shall be played, and now to gain even more 
television exposure and dollars, some of the institutions will 
compete with the traditions of the Sabbath day by playing 
football and basketball on Sunday evening as the network 
schedules. The only day college football is not played is 
Monday night, and that is only because of the popularity of the 
NFL.
    Mr. Stearns. I am just going to have you sum up a little 
bit.
    Mr. Friday. I thank you for creating this opportunity to be 
heard and to report on more than a decade of work.
    It is urgent that the American sports fan understand the 
consequences of this constant pressure to win. Intercollegiate 
sports are a highly important part of the mission of the 
American college and university, but academic fraud, recruiting 
violations, excessive compensation, operating an entertainment 
industry, failing to provide student athletes with an adequate 
learning experience, and serving as an NFL and NBA farm club 
clearly are not. It is time for that difference to be 
understood.
    We thank you for what you are doing.
    [The prepared statement of William Friday follows:]

    [GRAPHIC] [TIFF OMITTED] T3982.001
    
    [GRAPHIC] [TIFF OMITTED] T3982.002
    
    [GRAPHIC] [TIFF OMITTED] T3982.003
    
    [GRAPHIC] [TIFF OMITTED] T3982.004
    
    Mr. Stearns. And I thank you, Dr. Friday.
    Mr. McMillen.

                 STATEMENT OF HON. TOM McMILLEN

    Mr. McMillen. Mr. Chairman, I do not have a formal 
statement, but I presume in the question and answers I will 
support and assist Dr. Friday.
    Mr. Stearns. Okay. Very good.
    Mr. Renfro.

                 STATEMENT OF WALLACE I. RENFRO

    Mr. Renfro. Chairman Stearns, Ranking Member Schakowsky, 
and other distinguished members of the subcommittee, I am 
Wallace Renfro, Senior Advisor to NCAA President Myles Brand, 
and I want to thank you for this opportunity.
    The defining characteristic of the collegiate model of 
athletics in America is that those who compete are students. 
Last month the Division I board of directors reaffirmed its 
commitment to this principle. The board approved an incentives/
disincentives package that marks the first time Division I has 
tied a team's academic success to the number of grants and aids 
available to it, access to NCAA championships, and even 
certification of the program.
    Last fall tougher academic standards for entering freshmen 
and enrolled student athletes were implemented based on the 
most comprehensive research data base ever compiled to predict 
academic success. For example, we know that the best predictor 
for success in college is success in a broad range of high 
school core courses, even better than success on standardized 
tests.
    So the number of required high school core courses has been 
increased from 13 to 14 and will increase again in 2008 to 16. 
We know what it takes for student-athletes once enrolled to 
proceed toward graduation in a timely manner. Standards are now 
in place that require student athletes to complete 20 percent 
of their degree requirements each year.
    In addition, specific annual cumulative grade point average 
benchmarks are prescribed. We know with a level of scientific 
assurance that we have never enjoyed before that if students 
athletes meet these standards, they will graduate and will be 
well on their way to a successful life.
    These reform efforts have been lead by university 
presidents, but an early advocate for academic reform has been 
the Knight Commission, and Bill Friday has worked tirelessly, 
both from within the system as President of the University of 
North Carolina and through his association with the Knight 
Commission. Dr. Friday is a friend of college sports and its 
appropriate role within the university.
    But the critics of reform are already on the attack. The 
worst are the cynics who predict that reform efforts will fail 
because faculty will succumb to pressure and commit academic 
fraud. They say higher standards result in increased fraud. The 
argument is nonsense. Its logical counterpart is that reducing 
standards will reduce such practices and the elimination of all 
standards will end academic fraud for good.
    Faculties around the country should be insulted. Academic 
fraud is the result of lost integrity, not higher standards, 
nor is it fair to characterize all coaches as knuckle dragging 
neanderthals just interested in academic success. The vast 
majority of coaches view themselves as educators who take pride 
in the classroom achievements of their charges.
    We must be vigilant, of course, toward efforts to peck away 
at these reform efforts, but the messages sent forth with these 
reforms are clear. To the student athletes, prepare well in 
high school. Make legitimate and measurable progress toward a 
degree in college because if you do not, you will not 
participate in sports.
    To the university and specific sports programs, educate the 
student athletes under your charge. Achieve a defined measure 
of academic success for your team because if you do not, you 
risk losing scholarships, being withheld from championships or 
having your program be certified. These are the most profound 
research based reform efforts ever affirmed for intercollegiate 
athletics.
    Division I Vice President David Berst testified before this 
subcommittee in March as Chair of the NCAA task force on 
recruiting. The task force was charged to fast track a review 
of practices where alcohol and sex were used as recruiting 
inducements and to recommend solutions.
    The time line for the task force was clear. We will not go 
through another football recruiting season without new 
standards in place.
    The task force made it's first preliminary report in April 
and noted that recruiting practices over time have created a 
culture of entitlement among prospective student athletes. 
Competition for a highly skilled prospects has raised 
expectations for transportation via private jet, five-star 
luxury suites, extravagant meals, and game day simulations that 
glorify the feats of these athletes before they ever enrolled 
or set foot on the field.
    The central focus of the preliminary recommendations is to 
return recruiting visits to the purpose for which they were 
intended, a thorough examination of what each campus has to 
offer both athletically and academically.
    The preliminary report proposes legislation addressing 
these areas of entitlement. In addition, each institution will 
be required to develop written guidelines for its recruiting 
processes based on the guidelines.
    The task force will also develop procedures for the NCAA 
office working with its member conferences to initially approve 
each school's visit policies, and then to hold the institutions 
accountable through its enforcement process.
    In addition, the focus will continue on other 
recommendations that will reduce the celebrity status of 
prospects. The type of behaviors alleged in the past must 
become a thing of the past. Some institutions may write 
policies more stringent than others, but none may continue to 
tolerate the use of alcohol, drugs or sex as inducements.
    The confidence of the public and the integrity of college 
sports must be restored with the development of sound 
guidelines and new standards of acceptable behavior.
    Thank you.
    [The prepared statement of Wallace I. Renfro follows:]

  Prepared Statement of Wallace I. Renfro, Senior Advisor to the NCAA 
                               President

    Chairman Stearns, Ranking Member Schakowsky and other distinguished 
Members of the Subcommittee, on behalf of the National Collegiate 
Athletic Association, I appreciate the opportunity to appear today and 
discuss the academic reform of intercollegiate athletics, as well as 
provide an update on the work of the NCAA Task Force on Recruiting. I 
am Wallace Renfro, senior advisor to the NCAA President Myles Brand. I 
have been employed by the NCAA for more than 30 years in public affairs 
and media relations. Currently, I work directly with President Brand 
and provide advice and counsel in a variety of areas, including 
communications. The NCAA is a private association of approximately 
1,200 four-year institutions of higher education and athletics 
conferences. There are some 360,000 student-athletes competing at these 
NCAA member schools.
    The defining characteristic of the collegiate model of athletics in 
America is that those individuals who compete on the field or court are 
students. It is to their education and life preparation that those 
engaged in intercollegiate athletics--coaches, administrators and 
university presidents--must attend most ardently. Last month, the 
Division I Board of Directors--a decision-making body of university 
presidents that sets national policy for the 320 members of Division 
I--reaffirmed its commitment to ensuring the academic success of the 
more than 150,000 student-athletes in the division. It approved a 
package of rewards and penalties that will hold colleges and 
universities, as well as their athletics programs, accountable for 
educating their student-athletes. Commonly referred to as the 
incentives/disincentives phase of academic reform, passage of the 
package of legislation marks the first time Division I has tied a 
sports team's academic success to the number of athletics grants-in-aid 
available to the team, access to NCAA championships, and even 
certification of the program.
    This Board action followed implementation last fall of new and 
tougher academic standards for entering freshmen and enrolled student-
athletes. These standards are based on the largest and most 
comprehensive research database ever compiled to predict academic 
success. For example, we know from nearly two decades of data that the 
best predictor for success in college is success in a broad range of 
high school core courses--better even than success on standardized 
tests. So the Board has already increased the number of high school 
core courses required from 13 to 14 and will increase the number again 
in 2008 to 16.
    We also know from the research what it takes for an enrolled 
student-athlete to precede toward graduation in a timely manner. We 
know, for example, for a freshman to be on track to graduate in five 
years, he or she must complete at least 24 hours of course work in the 
first year and have a cumulative grade-point-average of at least 1.800. 
That became the new standard to determine appropriate progress towards 
a degree. But the Board also said a student-athlete must complete 40 
percent of his or her degree requirements by the end of the second 
year, 60 percent by the end of the third year and 80 percent by the end 
of the fourth year. In addition, specific cumulative grade-point-
average benchmarks are proscribed at the end of each year. We know with 
a level of assurance that we have never enjoyed before that if student-
athletes meet these standards, they will have an excellent chance to 
graduate and will be well on their way to a successful life.

                             BRIEF HISTORY

    These reform efforts have been a number of years in the making. 
Since the mid-1980s, college and university presidents have been 
working to address a disturbing trend among student-athletes with 
regard to their academic success. On average, Division I student-
athletes who first enrolled in college in the early 1980s were 
graduating two percentage points below the general student body. There 
were even a few embarrassing and unacceptable examples of student-
athletes emerging from four years of college unable to read or write.
    The early reform efforts were based more on anecdote than research 
and more on theory than science. Nonetheless, the first proposal--Prop 
48, as it has become commonly known--began having the desired results. 
It raised the bar for entering freshmen and established requirements 
for satisfactory progress for enrolled student-athletes. Graduation 
rates for student-athlete rose. They began first to close the gap on 
those of the general student body and then to surpass them. Today, 
student-athletes graduate three percentage points higher than the 
general student body. Women graduate at significantly higher rates then 
men, and student-athletes in the Olympic sports typically do better 
than those in the revenue sports.
    Indeed, it has been the lackluster academic performance of student-
athletes in Division I football and the abysmal success rate of those 
in men's basketball that prompted the latest round of reforms. While 
student-athletes in Division I are graduating at a rate of 62 percent 
(compared to 59 percent for the general student-body), football players 
are graduating at a rate of 54 percent--five points below the entire 
student body and two points below all males in the student body. 
Student-athletes in men's basketball currently graduate at a rate of 42 
percent--unacceptably below both the general and male student body.
    Even more discouraging is the graduation rate of men's basketball 
student-athletes in Division I-A, the 117 most elite institutions in 
the country. Here, the graduation rate of African-American male 
basketball players is 38 percent. And that figure is up 10 percentage 
points in one year. While the 38 percent is only four points below the 
graduation rate of African-American males in the general student 
population at Division I-A institutions, it is unacceptable. As 
disturbing as these numbers are, they do not represent the worst story. 
There are 10 men's basketball programs in Division I that according to 
the federally mandated method of calculating graduation rates have not 
graduated a single student-athlete over the past five years, and 46 
programs have failed to graduate an African-American male basketball 
player in the same span of time.

                     GRADUATION RATES CALCULATIONS

    The Student Right to Know Act of 1990, a bill co-sponsored by 
Congressman Towns, required all colleges and universities to submit 
their graduation rates of both the general student body and student-
athletes for publication and dissemination to prospects and their 
families. The NCAA has published those graduation rates for the last 13 
years, and they have helped quantify the issue of poor academic success 
rates among certain athletics programs. Until recently, that is. The 
Department of Education mandated last year that the rates of those who 
were scheduled to graduate (six years after initial enrollment, 
according to the federal guidelines) must be ``suppressed,'' or blocked 
out, in those instances where the number of individuals enrolled in a 
specific cohort or the number individuals who graduated in a specific 
cohort was less than three. This mandate means that a program that had 
two individuals enter as freshmen in 1996 and that graduated both would 
have its success ``suppressed.'' Worse, a program that had five 
freshmen enter in 1996 and had none graduate by 2002 could hide its 
failure behind the same suppression rule.
    Coaches have complained for years that the federal guidelines also 
treated programs unfairly with regard to transfers. The coaches are 
right. The federal guidelines assign the entire success rate for 
graduation to the institution where a student first enrolls. A student 
or student-athlete who left the institution in good academic standing 
or who would have been academically eligible to compete at the same 
institution had he or she returned counted against the school. And no 
institution got credit for a transfer-in who did graduate in the 
required six years from original enrollment.
    The NCAA will collect and publish the data on its own, beginning 
this summer. In addition, the NCAA is preparing to calculate a 
supplemental rate for student-athletes that will account for transfers 
into and leaving a program. This new Graduation Success Rate will more 
accurately define how individual programs are doing with regard to 
graduation rates and will bring sunshine to those programs where 
academic failure could be hidden from public scrutiny.

                          CYNICS AND NAYSAYERS

    The votes by the Division I Board of Directors on the new reform 
initiatives had barely been reported last month when the critics went 
on the attack. The worst are the cynics who have declared that the 
reform efforts will fail because faculty will succumb to the 
unrestrained pressure of coaches and fans and commit academic fraud to 
ensure that student-athletes remain eligible and athletics programs 
remain successful. Their arguments are specious. They would have us 
believe that higher academic standards result in increased instances of 
academic fraud. The logical counterpart is that reduced standards will 
reduce academic fraud, and the elimination of all standards will end 
academic fraud for good.
    The Board rejects completely the notion that tougher standards are 
a barrier to improving academic performance. Faculties around the 
country should be insulted by the suggestion that their collective 
integrity will wilt in the heat of competitive pressure. Academic fraud 
is the result of loss of integrity and not the result of higher 
standards or enhanced expectations. Nor is it fair to characterize all 
coaches as knuckle-dragging Neanderthals who are disinterested in the 
academic success of their student-athletes. The vast majority of 
coaches view themselves as educators who take pride in the classroom 
achievements of their charges.
    All who are involved in the administration of intercollegiate 
athletics must be vigilant toward efforts to peck away at these reform 
efforts. This is where the attack on integrity and the efficacy of 
these new standards will come. Where specific programs or individual 
coaches bemoan the harshness of the new standards because they can no 
longer be competitive, we will hear that a star athlete has been 
treated unfairly and unjustly or that the ``unintended consequences'' 
of reform must be set right. Those who care more for wins and losses 
than caps and gowns will look for the weakest link--the inattention 
that comes with satisfaction that reform is complete. Where there is 
academic fraud, it must be uncovered and punished. Where there are 
adjustments to be made to these standards based on new and better 
research, we must respond appropriately. We cannot allow cynicism, 
however, to undermine real academic reform. Nor can we permit 
perfection to be the enemy of progress.
    The messages sent forth by the Division I Board of Directors with 
passage of the new academic standards last fall and the incentives/
disincentives package last month are clear. To the student-athletes: 
Prepare well in high school, make legitimate and measurable progress 
toward a degree in college because if you do not, you will not 
participate in sports. To the university and specific sports programs: 
Educate the student-athletes under your charge, achieve a defined 
measure of academic success for your team because if you do not, you 
risk losing scholarships, being withheld from championships or having 
your program decertified. These are the most profound, research-based 
reform efforts ever affirmed for intercollegiate athletics. They will 
result in improved academic success for student-athletes.Recruiting 

Task Force Update
    Division I Vice-President David Berst testified before this 
subcommittee in March as chair of the NCAA Task Force on Recruiting. He 
reported on allegations that some institutions--the University of 
Colorado has been the most visible and most often in the media--have 
used recruiting practices that exceed the standards for acceptable 
behavior. Specifically, there have been charges that alcohol, drugs and 
sex have been used as recruiting inducements for young men. Mr. Berst 
noted that such practices are reprehensible and will not be tolerated, 
and he noted that President Brand had formed a task force within a few 
days of the first headlines. The task force was charged to ``fast 
track'' a review of the issue and to recommend solutions. The timeline 
for the task force was clear from the beginning. We will not go through 
another football recruiting season without new standards in place.
    The task force has made its first report to President Brand and to 
the Division I governance structure. (A copy of the report is attached 
to this testimony for the subcommittee's review.) In the report, the 
task force noted that recruiting practices over time have created a 
``culture of entitlement'' among prospective student-athletes. The 
competition among institutions for highly skilled prospects has 
escalated expectations among prospects for transportation via private 
jet, five-star luxury suites, extravagant meals, and ``game day'' 
simulations that glorify the feats of these athletes before they have 
ever enrolled or set foot on the field.
    The central focus of the task force's preliminary recommendations 
is to return recruiting visits to the purpose for which they were 
originally intended. The five official visits afforded prospective 
Division I student-athletes are intended to allow a thorough 
examination of what each campus has to offer both athletically as well 
as academically. Specifically, the report noted that official visits 
provide an opportunity:

 For prospective student-athletes and their families to fairly and 
        ethically assess their opportunities for academic and athletic 
        success and integration into the collegiate experience. This 
        should be a shared responsibility by all participants with 
        minimal emphasis on preferences or inducements;
 For institutions to fairly and reasonably evaluate a prospective 
        student-athlete for admission and participation in the 
        intercollegiate program;
 To establish a set of principles and guidelines for the conduct of 
        the recruiting process with full regard for reasonable and 
        acceptable forms of behavior;
 To maintain principles of institutional and personal accountability 
        with a set of internal controls sufficient to monitor 
        compliance and ensure public confidence; and
 To support diversity and athletics opportunities of women and 
        nonrevenue sports.
    The preliminary task force report proposes legislation regarding 
transportation of prospects, meals and lodging, game-day activities and 
entertainment. In addition, the report recommends legislation that will 
require each institution to develop and submit written guidelines for 
its recruiting process with full regard for reasonable and acceptable 
forms of behavior. The guidelines should also promote institutional 
accountability through a set of internal controls sufficient to monitor 
compliance.
    In its review of the report, the Division I Management Council 
urged the task force to develop a process for the NCAA national office, 
working with its member conferences, to initially approve each 
institution's campus visit policies and then to hold the institutions 
accountable through its enforcement process. In addition, the Council 
directed the task force to focus on other recommendations that would 
reduce the celebrity status of prospects and emphasize the 
opportunities for prospects and his or her family to make informed 
decisions about selection of a college and participation in the 
athletics program.
    Clearly, the goal is to set national standards that will guide 
individual campus policies with the aim of normalizing campus visits, 
providing a structure in which informed evaluations can be made and 
then holding institutions accountable for their actions. The type of 
behaviors alleged in the past must become a thing of the past. Some 
institutions may write policies more stringent than others, but none 
may continue to tolerate the use of alcohol, drugs or sex as 
inducements. Regardless of how deep past practices may run, the 
confidence of the public in the integrity of college sports must be 
restored to the development of sound guidelines and new standards of 
acceptable behavior.
    Thank you.

            RECOMMENDATIONS OF NCAA TASK FORCE ON RECRUITING
                 WORKING DOCUMENT AS OF APRIL 12, 2004

    Call to Action. Within a few days of headlines alleging excesses in 
the recruitment of prospective student-athletes related to the use of 
alcohol and entertainment at ``strip clubs,'' NCAA President Myles 
Brand responded on February 17, 2004, by calling for the appointment of 
an NCAA Task Force on Recruiting to review NCAA rules and practices 
related to ``official campus visits'' and to propose appropriate 
changes before the 2004-05 recruiting season.
    While it was noted that alleged illegal conduct is a matter that 
should be left to law enforcement officials to adjudicate and that 
institutions are the first line of defense to set standards for moral 
and ethical behavior, the NCAA also has a unique role to ensure that 
proper national rules and guidelines are in place to govern athletics 
recruiting practices, to assess accountability for failures and to act 
as a resource to assist in developing an institutional compliance 
program.
    Timeline for Project. The task force members were selected by 
February 24 (members are identified at the end of this report) and the 
group met via conference call on March 5 and in-person on March 29, 
2004. The task force also completed certain other assignments during 
that period via e-mail communication. An eleven member NCAA staff group 
also met with the task force on March 29 and separately on February 24 
and March 3.
    This working document of task force recommendations was presented 
to the Division I Management Council on April 20 and will be reviewed 
by the Division I Board of Directors on April 29, 2004. It is 
anticipated that the task force then will review the reactions of those 
groups and other reactions received soon after the April meetings and 
that a revised working document, will be circulated to the 31 Division 
I conferences, various coaches associations and other interested groups 
for discussion and debate during the spring and early summer. Following 
consideration of the reactions and comments received from all groups, 
the task force's final recommendations will be considered by the 
Division I Management Council on July 19, with the expectation that the 
Board of Directors will be asked on August 5 to use its authority to 
adopt emergency legislation so that necessary rule changes will be in 
effect immediately, and most importantly, before the 2004-05 recruiting 
season.
    Public Confidence and Guiding Principles. The task force began its 
evaluation of the ``official campus visit'' experience from the point 
of view that NCAA recruiting practices have not always developed out of 
concern for what a prospect must learn to select a college, but rather 
were often adjusted in order to address perceived recruiting advantages 
for some institutions in the competitive recruiting environment in 
Division I athletics. For example, modifications regarding 
entertainment of prospects within a specified number of miles from 
campus as compared to anywhere within city limits have been debated by 
the membership several times.
    This project, buoyed by broad-based support following media 
accounts of abuses, provides an opportunity to reevaluate the campus 
visit experience and to make recommendations for changes that more 
approximate the expected recruiting experiences of other exceptional 
prospective students, such as a science student or music or art 
prodigies.
    The task force agreed that current recruiting practices often 
exacerbate a prospective student-athlete's sense of entitlement, rather 
than reinforce that student-athletes also are expected to contribute 
constructively to the academic mission of the institution and in turn, 
benefit by gaining knowledge and tools through education in order to 
contribute to society. Further, the principles established for campus 
visits should serve as a foundation that withstands public scrutiny and 
that serve to maintain public confidence in the integrity of those 
involved in intercollegiate athletics.
    The following statement and principles were adopted.
    The campus visit of a prospect is an opportunity:

 For prospective student-athletes and their families to fairly and 
        ethically assess their opportunities for academic and athletic 
        success and integration into the collegiate experience and 
        should be a shared responsibility by all participants with 
        minimal emphasis on preferences or inducements;
 For institutions to fairly and reasonably evaluate a prospective 
        student-athlete for admission and participation in the 
        intercollegiate program;
 To establish a set of principles and guidelines for the conduct of 
        the recruiting process with full regard for reasonable and 
        acceptable forms of behavior;
 To maintain principles of institutional and personal accountability 
        with a set of internal controls sufficient to monitor 
        compliance and ensure public confidence; and
 To support diversity and the athletic opportunities of women and 
        nonrevenue sports.

                 DISCUSSION OF RECOMMENDED LEGISLATION

    The task force reviewed numerous alternatives to the current NCAA 
rules governing campus visits. There was agreement among the group that 
a recommendation to change a current regulation would require a minimum 
of 60 percent support among the group (i.e. 11 of 18) in order to move 
the initiative forward for further consideration by the membership. 
Based on that standard, the task force agreed to SUPPORT the following 
recommendations:
1. Transportation.
a. Recommendation: Require institutions providing air transportation to 
        prospects to and from an official campus visit to use 
        commercial transportation at coach-class airfare and to 
        prohibit upgrades. [For 17, Abstain 1.]
    Rationale: The proposed recommendation should assist institutions 
        in establishing a reasonable environment for the conduct of an 
        official visit, while minimizing excessive expectations created 
        by the use of private or charter airplanes. The group noted 
        that an institution may seek a waiver from the NCAA 
        Administrative Review Subcommittee to address an emergency 
        situation where the use of commercial transportation is not 
        practical or feasible. In addition, while it was recognized 
        that institutions are not always located at convenient 
        distances from a commercial airport, it was noted that this 
        fact should not be avoided during recruitment and should not be 
        a surprise to the prospect when traveling to the institution 
        for initial enrollment.
b. Recommendation: Prohibit institutions from using special vehicles 
        (e.g., modified with televisions or special decor or 
        appointments) to transport prospects around campus during the 
        official visit. The task force noted that institutions should 
        be expected to use private or institutional vehicles generally 
        used by personnel to transport prospective students on campus 
        tours. [Unanimous Voice Vote.]
    Rationale: The proposed recommendation should assist institutions 
        in establishing a reasonable and appropriate environment for 
        the conduct of an official visit.
2. Meals and Lodging.
 Recommendation: Require prospects (and prospect's parents or legal 
        guardians) to be housed in standard lodging that does not 
        include special accessories (e.g., Jacuzzis, suites) that are 
        not available generally to all guests residing at the lodging 
        establishment; further, to require prospects (and prospect's 
        parents or legal guardians) to eat standard meals on an 
        official visit that are comparable to those provided to 
        student-athletes during the academic year and to permit a 
        reasonable snack (e.g., pizza, hamburger) to be provided in 
        addition to the meals. [For 16, against 0, abstain 1.]
    Rationale: The proposed recommendation will assist in establishing 
        a reasonable and appropriate environment that more closely 
        resembles normal life for an enrolled student-athlete. The task 
        force noted that although the legislation would not require 
        institutions to provide meals on campus, the practice should be 
        encouraged as a ``best practice'' for institutions to consider 
        when providing meals to prospects (and the prospect's parents 
        or legal guardians).
3. Game-Day Activities.
 Recommendation: Prohibit institutions from arranging miscellaneous, 
        personalized promotional activities and from engaging in any 
        game-day simulations during a prospect's official visit. Such a 
        recommendation would prohibit such activities as personalized 
        jerseys, personalized audio or video scoreboard presentations 
        and running onto the field with the team during pregame 
        introductions, but would not preclude prospects from being 
        present in the locker room prior or subsequent to a competition 
        or standing on the sidelines during pregame activities prior to 
        being seated in the regular seating areas during the 
        competition. [For 16, against 1.]
    Rationale: The proposed recommendation will assist in establishing 
        a reasonable and acceptable environment for the conduct of the 
        official visit, and will help to eliminate the ``keeping up 
        with the Joneses'' mentality that often leads to excessive 
        activities during the official visit designed to induce the 
        prospect to attend the institution.
4. Institutional Policies Related to Official Visits.
 Recommendation: To require institutions to certify that written 
        departmental policies related to official visits that apply to 
        prospects, student-hosts, coaches and other athletics 
        administrators have been established and are on file. 
        Institutions would be responsible for the development of 
        appropriate policies regarding specified issues, including 
        policies related to alcohol, hosts, unsupervised entertainment 
        and sessions regarding academic programs and services, and 
        would be held accountable through the NCAA enforcement program 
        for compliance with these policies. [Unanimous Voice Vote.]
    Rationale: The proposed recommendation will ensure establishment of 
        a set of principles and guidelines for the recruiting process 
        with full regard for reasonable and acceptable forms of 
        behavior and promote institutional accountability through a set 
        of internal controls sufficient to monitor compliance. This 
        recommendation also recognizes that setting national rules 
        regarding policies such as curfews and sites where 
        entertainment may take place would not be as effective in 
        changing current behaviors as permitting institutions to adapt 
        policies to each institution's unique environment along with 
        clear accountability standards for compliance through the 
        national organization.
5. Entertainment.
 Recommendation: To require that hosts used for the entertainment of 
        prospects consist of either current student-athletes who are 
        members of the team in the sport in which the prospect is being 
        recruited or that they be designated in a manner consistent 
        with the institution's policies for providing tours to 
        prospective students generally who make campus visits. 
        [Unanimous Voice Vote.]
    Rationale: The proposed recommendation will establish a more 
        reasonable environment for prospects and their families to 
        fairly assess their opportunities for academic and athletics 
        success and their ability to integrate into the intercollegiate 
        experience. Further, it will assist in establishing an 
        environment that is consistent with the recruitment of other 
        prospective students who make campus visits.
6. Other items.
    a. The group previously expressed support for the following 
recommendations:

 Expanding current unethical conduct regulations applicable to 
        prospective student-athletes, student-athletes and 
        institutional staff members to address inappropriate behavior 
        (e.g., under-age drinking, use of drugs, entertainment 
        activities) that may occur during a prospect's official visit.
 Requiring a prospect making an official visit and the student-athlete 
        serving as a host to sign a form indicating that he or she will 
        not engage in inappropriate conduct during the official visit 
        as defined by the institutions.
    b. The task force also discussed but did not act at this time to 
eliminate the cash allowance provided to the student hosts and agreed 
to further discuss the merits of such a proposal in developing the 
appropriate environment to ensure institutional accountability related 
to the entertainment of prospects (and their parents) during an 
official visit. Some support for vouchers or credit certificates was 
expressed.

                            NOT RECOMMENDED

    The task force considered, but DECLINED to support the following 
recommendations. These are included in the report to invite comments by 
constituent groups before final task force recommendations are 
considered by the Management Council and Board of Directors in July and 
August.

21. Allow institutions to pay the airline transportation costs of a 
        parent or legal guardian accompanying the prospect during the 
        official visit. [For 7, against 10, abstain 1.] The task force 
        acknowledged that, in some instances, it may be helpful for a 
        prospect's parent or legal guardian to be present during the 
        official visit and should be encouraged, but also noted that 
        attending the visit without his or her parent also provides the 
        institution insight into how the prospect will integrate into 
        the intercollegiate experience. Interest was expressed in 
        providing flexibility to encourage parents and family members 
        who do accompany the prospect to participate more fully. It 
        also was noted that clearly stated institutional policy 
        regarding conduct is more meaningful than attempting to 
        influence behavior through required parent supervision.
2. Reduce the number of official visits from the current number of five 
        and reduce the length of the current 48-hour time period for 
        conducting the visit. [For 1, against 15, abstain 2.] The group 
        noted that reducing the number of official visits and the time 
        period for conducting the visit simply affects the time when 
        excessive or inappropriate behavior can take place and the 
        focus should more appropriately be on establishing standards of 
        behavior through institutional policies.
3. Establish an early signing date in those sports in which early 
        signing dates currently do not exist. [No action taken.] The 
        group noted that such a recommendation encourages a prospect to 
        forgo announcing commitments or signing until he or she takes 
        the maximum number of visits and noted that further discussion 
        of this issue should take place in the context of the 
        development of a new recruiting calendar for which earlier 
        access by coaches also is considered.
4. Require prospects to attend class or some form of academic 
        orientation session during an official visit. [No action 
        taken.] The group opined that academic activities are in fact 
        occurring on most campuses and agreed that functions related to 
        student activities, student life, career counseling and other 
        academic related issues should be included as part of a ``best 
        practice'' recommendation or topics addressed by the 
        institution's campus visit policies.

                                SUMMARY

    As noted earlier in this report, the recommendations of the task 
force are intended to provide a prospect and the institution a 
meaningful opportunity to make an informed decision about attendance at 
the institution and participation in the athletics program, while at 
the same time are intended to eliminate unjustified special 
arrangements associated with campus visits.
    In addition, requiring institutions to certify that campus visit 
policies and practices are in place acknowledges the responsibility of 
institutions to set standards for a healthy visit that take into 
account the uniqueness of each institution, but also provides the NCAA 
an accountability mechanism if failures are detected. While many 
institutions already have campus visit policies in place, it was 
suggested that the task force also develop an outline to assist 
institutions in addressing the full range of issues related to the 
campus visit experience. A set of recommendations and suggestions 
regarding sound practices will be considered by the task force and 
circulated to the membership in advance of the adoption of legislation 
this summer.
    It is to be hoped that the task force recommendations will be 
embraced by NCAA Division I institutions and coaches and that limiting 
excesses and adopting clear accountability for conduct associated with 
official campus visits will serve the academic and athletic missions of 
NCAA institutions while also assuring public confidence in the 
integrity of systems.
    Task Force Members. David Berst, NCAA Vice-President for Division 
I, chair; Tim Curly, Director of Athletics, Pennsylvania State 
University; Jeremy Foley, Director of Athletics, University of Florida; 
Katie Groke, Student-athlete, University of Wyoming; Reggie Minton, 
Associate Executive Director, National Association of Basketball 
Coaches; Jim Murphy, Director of Athletics, Davidson College Greg 
Naples, Professor of Accounting/Faculty Athletics Representative, 
Marquette University; Greg Naples, Professor of Accounting/Faculty 
Athletics Representative, Marquette University; Kevin Nesfield, 
Student-athlete, Purdue University; Chris Plonsky, Director of Women's 
Athletics, University of Texas, Austin; Sonia Price, Interim Director 
of Athletics/Women's Volleyball Coach, Alabama State University; 
Shannon Reynolds, Senior Director of Events/External Affairs, Women's 
Basketball Coaches Association; Virginia Shepherd, Professor of 
Pathology/Director of Science Outreach, Vanderbilt Medical Center; Gene 
Smith, Director of Athletics, Arizona State University; Grant Teaff, 
Executive Director, American Football Coaches Association; Patty 
Viverito, Commissioner, Gateway Football Conference; Stan Wilcox, 
Associate Commissioner, Big East Conference; Jill Willson, Director of 
Athletics, Texas A&M University, Kingsville; and Debbie Yow, Director 
of Athletics, University of Maryland, College Park.
    The task force has been assisted by a group of eleven NCAA staff 
members who have been working in concert with the task force: Elsa 
Cole--General Counsel; Beth DeBauche--Director of Division I; David 
Didion--Director of Enforcement; Keith Gill--Director of Membership 
Services; Jeff Howard--Managing Director of Public Relations; Damani 
Leech--Associate Director for Baseball and Football; Kevin Lennon--
Vice-President for Membership Services; Steve Mallonee--Membership 
Services Managing Director/Division I Governance Liaison; Delise 
O'Meally--Director of Membership Services; David Price--Vice-President 
for Enforcement Services; and Rosie Stallman--Director of Education 
Outreach.

    Mr. Stearns. Mr. Renfro, thank you, and I will start with 
the questions.
    Certainly it is welcoming rhetoric, opening statement to 
hear your comments, and it sounds good, and I appreciate your 
presenting that information.
    I guess the question is what we saw happen at the 
University of Colorado and we see that Dr. Hoffman came up with 
a whole new regimentation that she is enforcing, and she has 
agreed to actually sign the policy, the written policy on 
record in her college regarding the recruiting policy.
    Does your recommendation require the signature of the 
president of the university to sign and shouldn't the president 
be held accountable for these policies that the recruiting 
people are involved with?
    I mean, it is like what we did with FASB when we dealt with 
Telecom bubble and we saw Enron and all of these people. So the 
Oxley-Sarbanes Act said, okay, the CEO is going to now have to 
sign the P&L statement. I mean, your task force does not 
include that the president signs anything of any accountability 
responsibility, does it?
    Mr. Renfro. An overriding principle in the NCAA is the 
concept of institutional responsibility and that the president, 
the chief executive officer, signs off on all of those.
    Mr. Stearns. So your recommendation is this afternoon that 
the president of the university should sign this policy 
statement.
    Mr. Renfro. It is a fundamental part of the way that the 
association handles these issues.
    Mr. Stearns. Okay. When you developed your task force, you 
had athletic directors, you had athletes and faculty 
representatives. Did you ever have any presence of universities 
on the task force with recommendations?
    Mr. Renfro. Mr. Chairman, I have the listing of the task 
force members attached to the document that was presented to 
the committee.
    Mr. Stearns. Okay.
    Mr. Renfro. Let me look quickly through here.
    I do not see a president.
    Mr. Stearns. We did not see any, and my suggestion would be 
to you before you put this into concrete form, that you get the 
presidents of the university, some of them, involved to give 
some suggestion to what you are doing.
    Mr. Renfro. Well, let me be sure that I point out that 
ultimately the people that are going to sign off on these 
recommendations is the board of directors, which is made up 
entirely of university presidents. As a matter of fact, they 
commented and are continuing to comment on these 
recommendations after its presentation to them 2 weeks ago.
    But that board will be the body that signs off on the 
recommendations.
    Mr. Stearns. Dr. Friday, the Knight Commission first met, I 
think, in 1989. I think you and I talked about it, and you 
talked about some of the problems back in 1989. Do you see a 
lot of change since 1989, I mean, honestly?
    Mr. Friday. We have seen the change in the structure of the 
NCAA, which was our first proposal, that the presidents be put 
in charge.
    The second point of emphasis was academic reform. You have 
commented on what has happened recently.
    The third point of emphasis was financial accountability. 
We will be in a position to say something about this 
definitively in the fall.
    It is the problem of commercialization that is in excess 
now. Networks telling institutions when to pay , the amount of 
money that is involved flowing for salaries.
    Mr. Stearns. We get involved in this subcommittee because 
of commerce being in our title. I am going to give you a chance 
here, and this is really going to be a tough question for you. 
In a way I do not see a lot of difference between professional 
sports and collegiate sports in terms of the commercialization 
that is created. The athletic departments almost operate as a 
business. You know, they build this $90 million facility you 
talked about, $3.5 million for the locker room. I mean, they 
all benefit from the tax code.
    And yet they are taking in millions of dollars through the 
commercialization of selling this sport. I mean, do you think 
their status as a not for profit organization should be 
affected?
    I mean, if we went to a not for profit status, that would 
change us dramatically if they did not come up with a policy 
here. I mean, this is a big statement here, and I want you to 
give me some help on this because there are a lot of alumni who 
will not be too appreciative.
    Mr. Friday. Well, I think you have to look at it in the 
context of the series of decisions of the Supreme Court with 
reference to antitrust status. The universities, if you read 
Justice White's dissent in the Oklahoma case, you will see that 
what he has predicted will come true, and the institution is 
not able to do what you would have it do in the sense of 
setting certain standards. You don't pay any more than this 
level or have or have a conference do it. That cannot be done 
under these opinions.
    Maybe an exemption to antitrust states what we're really 
talking about.
    Mr. Stearns. Mr. McMillen, some leaders in the collegiate 
basketball profession, including Terry Holland and Dean Smith, 
advocate for freshmen ineligibility. Do you think this would 
help in the adjustment of a freshmen and his academics if he 
was told he was ineligible as a freshman for professional 
sports?
    Mr. McMillen. I am somewhat ambivalent on that issue. If 
you would indulge me for a minute, I think it is a minor issue 
when there are many major issues to deal with. I would like to 
follow up on Bill Friday's comment.
    Mr. Stearns. Sure, okay.
    Mr. McMillen. You know, this is kind of like the movie 
``Groundhog Day.'' You keep getting up and the same story is 
over and over again. Nothing changes.
    Well, that is really the plight of really intercollegiate 
athletics, and I comment the NCAA, and they have made a lot of 
good progress, but there are some structural problems, and I 
would like for the record to submit to you legislation that I 
introduced in 1991 that referred to this committee and others, 
as well as an op.ed.
    [The material appears at the end of the hearing.]
    Mr. Stearns. By unanimous consent so ordered.
    Mr. McMillen. And basically it deals with what Wizzer White 
said in 1984 when you had a fragmentation of television rights 
in the Oklahoma NCAA case. He said that you are going to see an 
arms race in college sports. It is going to have, you know, one 
school against the other, and you are going to have a terrible 
mess on your hand.
    In his dissent report in that court case, he went against 
the majority report, was truly prophetic. The legislation I 
introduced in 1991 was to try to take all of the money in 
college sports, put it back into one pot, have the presidents 
control that pot, have it distributed to colleges and 
universities not based on winning and losing, but on gender 
equity, breadth of programs, less money for, you know, high 
paid coaches.
    Mr. Stearns. Including graduation rates maybe.
    Mr. McMillen. And graduation rates, and if schools wanted 
to opt out of that system, let them be taxed like taxable 
businesses. That was the essence of the legislation.
    You know, I said at the time it is going to take 20 years 
before anyone would take it seriously, and it would be a 
gambling crisis or some scandal in college sports before people 
would look at it.
    I am proud to say that the Knight Commission now is 
beginning to look at these issues seriously. I do not think 
college sports is ready for this. It is not going to happen 
tomorrow, but when you talk about vision, which is what you 
said in your opening statement, we have to look ahead and 
figure out how to put this commercial monster back in its 
place.
    Kids will play just as hard where the coach makes $2 
million a year or $1 million or $100,000, $200,000. They will 
play just as hard on the court. Adn the point you said, it look 
s a lot like professional sports is true, except if you want it 
to look like professional sports, then the players ought to be 
able to walk in with a lawyer and negotiate a contract just 
like the coach could do.
    But I am not advocating that. I am saying that if you want 
a professional sports league, give the players rights and run 
it like a business and tax it like a business, but if you want 
a college system, then the whole thing has to be restructured. 
And that was really the point.
    And if you restructure it, you will take care of recruiting 
abuses. You will take care of the freshmen issues. One thing 
you ought to understand about college sports right now is that 
schools do not even put their schedules out anymore because 
they have to wait until the networks tell them when their 
football games are going to be in the fall.
    The presidents of universities are no longer in control of 
their campus schedules because they networks tell them that the 
games will be Sunday night at nine o'clock or Sunday night at 
seven o'clock or Saturday afternoon. They are the ones in 
control.
    And I think that this committee, if it is looking at the 
long view of college sports, notwithstanding all of the things 
that the NCAA has done in the right direction, I think you have 
to look at the bit picture and see where all of this is going 
to go over the next 5 to 6 years.
    Mr. Stearns. I thank the gentleman. My time has expired.
    The gentlelady, Ms. Schakowsky.
    Ms. Schakowsky. Thank you.
    At the last hearing, President Betsy Hoffman from 
University of Colorado was testifying, and I was very concerned 
and continue to be about the statements that Gary Barnett said 
about a girl who said she was raped and what sounded like this 
really unacceptable excuse that, well, she is a girl, is what 
he said and she was not very good anyway.
    And you talked, Dr. Friday. Here is an individual that is 
on paid leave. He makes over $1 million a year, and there is 
some sort of investigation going on.
    But if we are talking about culture, changing a culture 
here, then I am still absolutely mystified that someone who 
made such a blatant kind of sexist and inappropriate statement 
about what is potentially a serious crime against this girl is 
left in this position. I cannot understand what a rationale 
could be, and I cannot understand what kind of signal it sends 
to young men who are playing this sport.
    And I wanted some comments about that, and if in any way 
the new NCAA guidelines address this kind of behavior on the 
part of a coach and speak to this kind of unacceptable 
statement.
    Mr. Friday. Well, it was an inappropriate and wholly 
unnecessary and improper statement. No question about that.
    The report of the investigation at the University of 
Colorado will be in your hands either tonight or tomorrow. It 
is coming out, adn there are findings in there. I do not know 
what happened in disposition of people, but I would guess that 
there would be some very severe language in there. I have seen 
some advance sheets on it.
    But we are dealing here with a question of integrity and 
character of an institution, and when you represent an 
institution, whatever you position is, you should act that way. 
There is no other option you have.
    And I think when the basketball coaches called themselves 
into executive session not too many weeks ago, this is one of 
the matters they were talking about: conduct, behavior. They 
had two or three cases like in Baylor and some other peoples 
that had come up.
    So I am sure they are working on it. We just do not know 
about it, but I would agree with you. It needs to be done.
    Ms. Schakowsky. I just think he should be gone, gone, gone, 
gone once those words came out of his mouth, and the fact that 
he is not is a very loud message.
    Mr. Renfro, did you want to comment on that?
    Mr. Renfro. President Hoffman has indicated that she is 
going to make a decision about his future at the University of 
Colorado. I think by the end of the month. She wanted to wait 
until this report came out, and that is a process that she 
chose to address the issue.
    I think it is very difficult for anybody who heard those 
statements to think of a context in which they are appropriate, 
and I think that everyone has been upset, disturbed, outraged 
by those statements. I will not try to predict what President 
Hoffman will do, but it would appear that she has indicated 
that she is going to make a decision by the end of the month.
    Ms. Schakowsky. And let me just say for the record I think 
by letting it go this far even, she has said something about 
it, that it was not serious enough.
    But, Mr. Renfro, the NCAA President, Myles Brand, said in 
early April, he said, ``I think it is the proper role of the 
NCAA in this case to legislate behavior, and let me tell you 
why. In the past we have allowed common sense and moral decency 
to be the guiding factors in recruiting.''
    Well, it does not work, understanding that we are going to 
have to take steps to regulate behavior. He also said, ``There 
are certain behavior standards that are not permissible. You 
want to legislate behavior so that it does not put the student 
athlete, the potential student athlete or anyone else in the 
position to undertake illegal activity.''
    Well, given that this is the public position of Mr. Brand, 
why did the task force choose to act actually, it seems to me, 
in the opposite manner and instead leave the question of 
behavioral standards up to individual colleges or universities?
    Mr. Renfro. You know, I do not believe that the task force 
is going to finish its report without firmly saying that 
behaviors that include the use of alcohol, drugs, or sex as 
inducements will not be tolerated. I don't believe that that 
report will end up absent that kind of statement.
    It is the kind of statement that, in retrospect, you may 
wonder why it wasn't there all along. And I think that is 
exactly what President Brand was trying to get at. I think 
there was a sort of acceptance, an understanding, that that is 
a level of common decency and common sense that you would think 
would prevail. But it will be there going forward.
    Mr. Stearns. The gentleman from New York, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Mr. Renfro, you know, if these reforms are put in place, 
will the NCAA have the resources to actually investigate or to 
make certain that they are kept are lived up to?
    Mr. Renfro. In the last few months, President Brand has 
increased the size of the enforcement staff by about 50 
percent, added six new investigators. I think that is going to 
make a big difference, and I will tell you that he is committed 
to making sure that the enforcement of the bylaws is as strong 
and as powerful and as determined as he is with changing the 
culture, understanding that what we are here for are the 
student athletes.
    Obviously, we will never have enough representatives, 
enforcement representatives to put one on every campus to be 
sort of continuously investigated. We have to change the 
culture in a way that puts the institutions in a position where 
they act responsibly, and when they don't they are held 
accountable.
    Mr. Towns. You know, I guess the reason I raised this issue 
is that when you hear coaches say--and I have heard this--you 
know, I have been involved in this stuff now for a long time. 
And coaches would say to me, ``I am leaving that university, 
because they are too rigid, and I am going to another 
university.''
    So what I am saying is that a coach will come in, not 
follow the rules, not follow the regulations, and then all of a 
sudden the school is in a mess, he goes on to another 
university, gets a job making four times the amount that the 
President is going to make at the university. I mean, how do 
you control something like that? This thing seems to me just--
this bus is loose. There is no driver.
    Mr. Renfro. It is almost impossible to control that, 
because institutions have the ability to hire. The NCAA does 
not hire coaches. That is the responsibility of individual 
institutions. We try to expose the history of those coaches who 
commit those kinds of grievances and who violate, sort of at 
will, NCAA bylaws.
    We even have regulations in place that says to that hiring 
institution, ``You are going to have to come before us and 
explain to us what you have done, how you--what you have put in 
place, show cause for why this individual should be hired by 
your institution as a coach,'' because this is the pattern in 
the past. We want to see what you have done to guarantee that 
those kinds of behaviors aren't going to continue in the 
future.
    Mr. Towns. You know, the other thing that--you know, that 
really I am troubled by is that these are educational 
institutions, and that you have a President making $300,000, or 
$250,000, and then you have a coach making $2.6 million. I 
mean, what kind of message does this send? I mean, there is 
something wrong with this.
    Mr. Renfro. I think that all of us would take a look at how 
the marketplace affects salaries, maybe in various professions, 
and wonder how salaries got to where they are, and yet we know 
that it is the marketplace that is ultimately going to 
determine that.
    We were in a--you know, we had legislation at one point 
that tried to control the salary of one particular 
classification of coaches, and suit was brought against us, we 
lost, and it cost the association $54 million for the 
experiment. As a matter of fact, we are not able to control the 
salary of coaches.
    One point I will make--remember that not all of that money 
is coming from the university. Very often the bulk of it is 
coming from other sources. Those coaches have to disclose the 
source of those other funds, but it is not under the control of 
the university. And so they may be from consulting, from 
television contracts, from endorsement type arrangements. There 
may be various other sources for those funds.
    There are a number of other individuals on a campus who may 
be in that same category. There are professors who are paid a 
handsome, but nominal, fee for what it is that they do, and 
they also have outside income that are, frankly, equal to what 
some of the coaches are making.
    Mr. Towns. Let me just be right candid with you. You know, 
we spend a lot of time with the student athletes' rights. You 
know, my good friend Tom McMillen was involved in those issues 
here. And, of course, they found a way to get around that. You 
know, in that we had the letter of intent, you had to indicate 
your graduation rate. Now they don't send letters; they make a 
phone call to the kid. I mean, it seems to me that you need to 
do something to be able to say that a letter of intent must go 
out.
    I mean, I don't know what to do. I am just frustrated, 
because I think that our young people are just being used and 
abused. And I think it is wrong, and I think that what they are 
saying on the phone, as one kid told me, he says, ``Well, you 
know, if there is any question about our graduation rate, you 
need to understand it is because we send our players to the 
pros.''
    Mr. Renfro. Congressman, here is what we have done. We have 
been publishing those graduation rates since the Act was put in 
place. We have been in discussion with the Department of 
Education about some of those rates, because there are rules 
that suppress the rates in some instances, and in some cases 
that has kept us from shining the light on some of the worst 
examples.
    Beginning this summer we are going to collect the data 
ourselves, and we are going to publish it. So as a matter of 
fact, we are going to take it one step further than has been 
the practice the last couple of years. We are going to collect 
the data, and we are going to publish it. We are not going to 
suppress those kinds of numbers in the future.
    Mr. Towns. I am happy to hear that. Let me just--Dr. 
Friday, I would like to hear your comments, because I have 
followed your career and I have been so impressed with you, you 
know, down through the years. I would sure like to hear you on 
this.
    Mr. Friday. What you have brought to fore here is one of 
the fundamental problems in college sport. That coach's 
salary--let us take a big-time coach. It is $500,000 in the 
shoe contract, $300,000 or $400,000 in doing radio and 
television, some of them have annuities that have amounts 
involved, $300,000, $400,000, $500,000.
    The pay that they get from the institution is by far the 
smallest piece of the package. This is the way it has evolved.
    Now, going back to the chairman's earlier question, maybe, 
as you are suggesting here, these contracts should bear the 
President's signature, and that he should have to authorize 
these as appropriate uses of the university itself. You see 
what happens is when you as a coach sign that contract, you 
guarantee that your players are going to wear that uniform, and 
you don't have any option about it.
    So you are merchandising the university yourself, and that 
is what the President's job is. And this is what I am sure 
tonight the Commission will have something to say about.
    Mr. Towns. Thank you. I know my time has expired.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Rush.
    Mr. Rush. Thank you very much, Mr. Chairman.
    As I sit here, and as I listen to some of the comments--
and, you know, I have followed this issue for a number of 
years, and it seems as though we are on a merry-go-round as we 
try to change the practices and change some of the outcomes on 
these particular issues, especially as it relates to how the 
enormous input of--influx of dollars, how it has corrupted the 
college athletic programs across this country.
    And, really, right now it is like a quagmire that exists as 
far as I am concerned. It is like a--it is a quicksand of 
just--I don't know exactly how we are going to try to pull 
college athletics out of this quagmire that exists.
    I guess, you know, Mr. Chairman, I want to just ask the 
committee, because I am particularly--I mean, as the 
panelists--I am particularly concerned about the graduation 
rates and the recruitment levels and the commitment to these 
young people who are--who are looking for a better life for 
themselves and for their family, and who put a lot of their 
future and a lot of their--just they invest a lot.
    I mean, an athlete invests a lot of their time and efforts 
trying to get--come up out of some very, very difficult 
circumstances. And they go off into these schools sometimes, 
and then they are just treated like--you know, like shadow 
property for the most part.
    And I just--you know, I know Tom indicated some 13 years 
ago that he passed legislation which was very important, and I 
think that the--I am at a point where I am so frustrated that I 
think that we need to really look at, how do we get--how do we 
fight these institutions where their pocketbooks--fight them in 
the pocketbooks? And use the RES or other kinds of legal 
systems to force these schools to deal with the ramification of 
what their practices are.
    And so my question to the panel--because as a Member of 
Congress, I mean, I am frustrated. I am very frustrated. You 
know, I know that the NCAA is doing what it feels as though it 
should be doing, and I know that the Knight Foundation is doing 
what it should be doing. And Tom and others are trying to do 
what they feel should be done.
    And, you know, there are always ways that these 
universities are--and these coaches and these other commercial 
interests in our country--there are always ways for them to try 
to figure out how to get beyond where we are all trying to head 
to.
    So my question is: is there a role that other Federal 
agencies could play in terms of bringing these appointed 
practices of these universities to a screeching halt? Can we 
use the court systems better? Can we use the tax codes better? 
Should we put at risk those institutions' tax exempt status if, 
in fact, they continue to discriminate against their own 
athletes, their own students, by forcing--I mean, by having 
these severe disparities in terms of the graduation rates? I 
mean, is that an appropriate way to proceed?
    Mr. Friday. I would hope that the universities themselves, 
now that they are in real arm lock trying to change this 
situation, would be allowed to really work with the system.
    Let me illustrate. The Commission recommended that you 
wouldn't be allowed to play in a bowl game if you didn't 
graduate 50 percent of your athletes. That gets to the money. 
And when you cutoff the money flow, you get attention. And the 
work that they are doing now with the academic reforms, you 
remember, ties into this very point, because you have to 
achieve or you don't participate.
    Now, we haven't done these kinds of things before. But 
money is generating half the problems we have got, so we have 
got to attack it that way, and directly I think. Now, it would 
have worked a real hardship in the last NCAA championship. But 
when you tell these institutions that this is the standard, and 
you say this to most young people, they achieve.
    We had a 98 percent graduation rate in basketball, but that 
was because Coach Smith really took an interest in every single 
player. They spend $500,000 a year in counseling services for 
these young men and women, and that is the reason they have 
been so successful.
    You will find this going on in almost all of the big 
programs. The question is--now there is so much pressure to 
leave early, and I am very pleased that the NCAA is working on 
a way to be more fair in computing graduation rates, because 
right now if you transfer out, you get penalized in the wrong 
way by the formula the government has prescribed.
    So please give them--give us time, through the NCAA's 
efforts, the Commission's efforts, the faculty groups, the 
governing boards. There are so many people now really listening 
that I think some things will happen that will make a real 
difference.
    Mr. Rush. Mr. Chairman, I know--could I just follow up with 
this question, and anybody can answer this. Tom, if you have 
got some points. Okay. That is the universities. Now, here you 
have the broadcasters who are under jurisdiction of this 
committee. What do you suggest that we do? How would you 
suggest that we deal with the broadcasters? Because they are 
partners in this--in these efforts.
    Mr. McMillen. I would like to answer that by using an 
analogy. Back in the 1970's when the Olympic Committee was 
reconstituted, there were many fifedoms of amateurs in America, 
and the Amateur Sports Act put all of that together and make 
the United States Olympic Committee all powerful. And it has 
worked pretty well over the years, with a few problems 
recently.
    I am in favor of an all-powerful NCAA. I don't like the 
conferences doing their thing. I don't like these--the 
playoffs. I don't like any of that. I like to have an all-
powerful NCAA. I like them to control it based on academic 
values, not commercial values.
    There will be just as much money. They can tell the 
broadcasters when they can broadcast, not the other way around. 
And if schools don't want to play in that game, tax them like 
businesses. That was the genesis and the foundation of the 
legislation.
    And I think Wizzer White back in 1984 when that--you know, 
when the NCAA lost that case and television monies were 
fragmented, this has all resulted from that--that any school--
Notre Dame, any school can go out and do its own TV deal. And 
you have created an arms race, and the only way to control this 
is to get the money under control.
    Mr. Stearns. The gentleman's time has expired.
    Did you want to answer, Mr. Renfro, to Mr. Rush's----
    Mr. Renfro. I did want to make just a couple of brief 
points. One is that we have made progress over the last two 
decades in graduation rates.
    When we started with Prop. 48 in the mid 1980's, graduation 
rates in Division I of student athletes lagged behind the rest 
of the student body. On average, today they exceed the 
graduation rates of the rest of the student body by 3 
percentage points. We have made that kind of progress.
    In the last year, the graduation rates for African-American 
basketball players at the Division I-A level, the most elite 
level, went up 10 percentage points. That sounds like an 
enormous success story. But it went from 28 percent to 38 
percent. That still is completely unacceptable. It is higher 
than the average graduation rates of other African-American 
males in the general student body, but it simply isn't high 
enough.
    We have made progress. We are making--we believe we have 
the best system in place right now to make additional progress. 
And the thing that we are doing now that we have never done 
before is hold the institutions accountable in terms of 
scholarships, access to championships.
    Mr. Stearns. We are going to do a quick second round. There 
are some members who would like to do this. I don't have too 
much.
    Mr. Renfro, what do you think of Mr. McMillen's legislation 
of some time ago? I mean, would you think that is worthwhile, 
too, maybe for this committee to actually reenter--reintroduce 
under my subcommittee and have a hearing on it and consider it 
formally?
    Mr. Renfro. I think it is a very interesting concept. It is 
one that has been debated within intercollegiate athletics and 
the NCAA off and on as long as I have been with the 
association. I think that part of the problem has been whether 
we--how we were going to be able to justify that kind of 
legislation.
    In other words, can we get it passed? Is it possible to do 
it? And if we do, what will be its limitations? Will it be 
narrow, or will it be broad? And if it is narrow, what does 
that do and say about other areas where we have obligations to 
create regulations?
    I think it is worth debating. I think it is something that 
we should certainly discuss. But I think that it is something 
that you have got to look at all of the possible consequences 
of doing it and how you are going to actually frame----
    Mr. Stearns. How you are going to implement it.
    Mr. Renfro. [continuing] how you are going to implement it, 
yes.
    Mr. Stearns. I see your problem as--Mr. Towns touched upon 
it, I think. You just don't have enough people in enforcement--
as I understand it, approximately one for every 100 members of 
the NCAA. The NCAA's enforcement of its own rules was somewhat 
challenged, I guess is what we are thinking.
    Mr. Towns. You mean one--an investigator for every 1,000.
    Mr. Stearns. We have 100. You have 1,000? It is 1,000. We 
have 1,000. Okay. Thank you. I thank my colleague.
    Mr. Renfro. Right. We have about 18 investigators.
    Mr. Stearns. Okay. So you can't possibly enforce this. You 
can't possibly get a handle on it. And here we all agree it is 
an arms race. Can you get more money from your membership to 
increase your resources?
    We are asking that colleges and universities be self-
policing. But I think there has got to be some hammer 
somewhere, and you are it.
    Mr. Renfro. If you were to depend entirely on those 18 
investigators, it would be the most daunting task that I can 
possibly think of. You have to remember that intercollegiate 
athletics is very competitive, highly competitive. If you and I 
are in the same conference, I am going to keep my eye on you. I 
am going to make sure that you are operating according to the 
rules, and when you don't I am going to try to do something 
about it.
    That is part of the self-policing process, and it has been 
helpful. Those 18 investigators, in fact, are supplemented 
quite a bit by the very competitive nature of intercollegiate 
athletics. Can we do better and do more if we have more 
resources to throw at the problem? Sure. I am positive that we 
can.
    Where is the logical limit to where that--you know, what is 
the magical number that we get to that solves the problem that 
essentially, you know, cuts out the cheating heart? And I don't 
know whether we are going to get there or not.
    Mr. Stearns. Dr. Friday, do you have any suggestion here? 
Do you think that they ever--are they ever going to have enough 
resources? Or do you think his idea--that the colleges and 
universities self-police themselves because they are in 
competition with each other?
    Mr. Friday. Well, you would like to believe the latter.
    Mr. Stearns. Yes.
    Mr. Friday. The evidence before you doesn't show that.
    Mr. Stearns. Right, it doesn't show that. Yes.
    Mr. Friday. I think it would be good to proceed with this. 
For example, the BCS situation in this country, a wholly 
independent, self-determining group, dealing with hundreds of 
millions of dollars, NCAA has nothing to do with that.
    Now I know that Mr. Brand and his colleagues would look 
with you on the stars maybe because it is a huge burden. But 
when you are dealing with that kind of fund distribution and 
that flow of money, you have got to have a central command 
somewhere that looks at this and says, ``Wait a minute.'' They 
do it in basketball and do it well.
    Mr. Stearns. My time is--I will finish. Mr. Towns?
    Mr. Towns. Thank you very much, Mr. Chairman.
    Mr. Renfro, you know, I really am impressed with the 
reforms. I think that is--they are great and long overdue. But 
I do have a problem, though, in terms of with the reforms. You 
know, a coach creates a problem. You eliminate X amount of 
scholarships at that particular school. The coach goes on.
    Why can't you attach this to the coach or the fact that if 
he creates a mess, and has to lose X amount of scholarships, 
wherever he goes he should lose scholarships. He should become 
attached to that in some way, because, if not, I am not sure he 
is going to really get the message.
    Mr. Renfro. I think that is a very interesting idea, and it 
is not the first time it has been proposed, or at least 
discussed. And it may very well be the next place that we go. I 
hope that you are as impressed with the reforms 3, 4, 5 years 
from now as you are today. I believe that this is the best set 
of reforms that we have ever put forward, and I hope that they 
make a big difference.
    What you are describing may very well be the place where we 
need to go that--so that we up the ante to the level that the 
behavior changes.
    Mr. Towns. Yes.
    Mr. McMillen. Just a quick comment on that. You are 
absolutely right. The coach should pay a price. You know, if a 
team's graduation rates fall below, good kids who are good 
students are penalized, the coach can walk and not be 
penalized. But that shows you that the problem with the NCAA is 
they can't control that, because it is fragmented, and they 
can't control the salaries. And the system right now is so 
fragmented that no one really is in control, and that is really 
the problem.
    Mr. Towns. And that is unfortunate, because a lot of good 
kids are being hurt, and it should not, you know--you know, I 
don't know in terms of how to put this I guess. In order to 
clean this up, it seems to me that you need to put forth a 
great deal of effort on the front end here with a lot more 
investigators.
    Based on what I am hearing, some schools are doing so bad, 
and some of the other things, you probably could use your 18 
investigators in one school, you know. But I think that you 
have to find a way to clean this up and then move forward.
    You know, we were hoping that the student athlete's right 
to know would do some of this. We felt that if we implemented 
it, that it would create tutorial programs and all the kinds of 
things that--you know, to help youngsters. But it has not 
worked, you know, quite as well, so----
    Mr. Renfro. Well, we hope to give it a boost in this next 
year.
    Mr. Towns. Right. Let me ask one other question, Mr. 
Chairman, and then I am going to close. Why can't we take some 
of this money from these bowl games and put it into helping in 
terms of to enhance the kids' performance? I mean, why can't 
we--for more tutorial services, more support kind of--why can't 
we take some of that money and put it into those areas?
    Mr. Renfro. You know, remember that the NCAA has no 
jurisdiction over the monies from those bowl games. As 
President Friday pointed out, that really is the purview of the 
BCS conferences.
    Mr. Towns. Right.
    Mr. Renfro. Now a larger number of conferences. However, we 
do have purview over the money from the CBS contract. The 
distribution to the membership, to Division I, half of that is 
based on their participation in the Final Four----
    Mr. Towns. Right.
    Mr. Renfro. [continuing] the basketball tournament.
    Mr. Towns. Correct.
    Mr. Renfro. The other half is based on what is called 
broad-based half of the distribution--based on the number of 
programs they have, the number of student athletes they have. 
And included in that are funds that go to every institution--
$50,000 each year that go to each institution for academic 
enhancement, to help those--to help the institutions with doing 
exactly the type of thing that you are talking about. That is 
$15 million that goes to Division I for that purpose.
    We also have, through the Student Athlete Opportunity Fund, 
another $17 million this year that will increase by 13 percent 
per year over the life of the CBS contract, some of that which 
may be used to help supplement the academic performance of 
student athletes.
    Mr. Towns. Dr. Friday?
    Mr. Friday. The television networks--this thought just came 
to mind. They might be encouraged to contribute to such a fund, 
since they profit so much from the television exposure. I don't 
know how you would do it, but you could----
    Mr. Towns. Maybe we could talk to the FCC.
    Mr. McMillen. You know who is in control of college sports 
today?
    Mr. Towns. Who?
    Mr. McMillen. It is this. This is what is controlling 
college sports, because, you know, with all due respect for the 
good work that they have done--and I really do commend the 
NCAA--it is sadly the case that that--this is what is in 
control of college sports. And it is going to take some 
serious, serious changes to really do something about that, and 
I say that with all due respect for the good work the NCAA has 
done.
    Mr. Towns. Right. Thank you very much. My time has expired. 
And I also would like to say that I really feel that you are 
putting forth an effort, you know, and that is I think 
important. I have not always felt that way; I want you to know 
that.
    Mr. McMillen. I understand, Congressman.
    Mr. Towns. So I need to share that. But we still have a lot 
of work to do. Thank you very much.
    Mr. Stearns. Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman.
    Dr. Friday, the word ``fragmentation'' has been bounced 
about for most of this hearing. And it seems to be a part or at 
least be one of the key components of the problem and also the 
solution--how do we deal with the fragmentation? And how do you 
suggest that we try to go about dealing with the fragmentation 
and creating some kind of governing body that is powerful, that 
can make decisions and control college athletics, regardless of 
the interest of the commercial concerns? How do we--I mean, how 
do you think we can move from where we are right now to a more 
centralized and controllable----
    Mr. Friday. Well, I think you are speaking directly to the 
presidents of the institutions in this country, because they 
have--they are--as Mr. Renfro said, they are in the position of 
controlling the NCAA now. They can do these things if they make 
up their minds to do them. They can control some of these 
abuses, and they are working toward that now.
    The academic reform work will go to Stage 2, and we will 
see some sanctions applied. That can cost money. If you don't 
achieve here, you don't go. You don't do this. Well, that is a 
negative way of doing it. I would rather be positive. But if we 
have come to that, then we will do it.
    But I really think we ought to let that run its course for 
a bit. If it doesn't work, then you come back into session.
    Mr. Rush. Tom, how do you--what would you say?
    Mr. McMillen. I wouldn't disagree with Dr. Friday. I think 
that--I am not an advocate of Federal solution, but I think 
that is going to be the solution in the long run. And I think 
that, you know, the President should be in charge.
    But because of this fragmentation, and that Supreme Court 
decision, you now have the conferences, and you have all of 
these different structures, autonomous structures, that are 
doing their own thing, and the coaches are negotiating bigger 
and bigger contracts, and really it is very difficult to put 
that genie back in the bottle.
    And so going back to what Congressman Towns said, you know, 
Congress spends billions of dollars on higher education. This 
is threatening the integrity of higher education in America. If 
it cannot be policed by the presidents, then we need a Federal 
solution. I think that is a fair answer.
    Mr. Renfro. With all due respect, Tom, I hope that you are 
wrong, that the only solution is something from this 
institution. I think there is in that, however, a clear message 
that the universities and university presidents must regain 
control of their athletics programs. They must integrate those 
programs back into the institution.
    They are getting a lot from intercollegiate athletics. They 
are benefiting a lot. They should pay for that. The athletic 
programs shouldn't be expected to go out and raise all of those 
dollars themselves. There is a connection that is logical. And 
when you push intercollegiate athletics away, you can expect 
that it is going to behave in ways that don't match the mission 
of the university.
    Mr. Friday. Mr. Chairman, in 1989, Louis Harris conducted a 
survey of public opinion in this country about college sport. 
The last of the findings was that 6 out of 10 Americans felt 
that the day might come when the presidents wouldn't do it, and 
you would have to do it. But let us hope that day doesn't come, 
that we can trust the process and the institutions which we 
hold so accountable for the moral fiber of the country. And 
this is where the presidents have a job to do.
    Mr. Rush. Mr. Chairman?
    Mr. Stearns. Yes.
    Mr. Rush. Before you conclude--I think you are headed 
toward a conclusion--I would just like to go on the record just 
to say that I look forward to the day when we can have a 
hearing like this and have university presidents to come in, so 
we can really just kind of--you know, from different--that 
would be representative of the university presidents. I would 
really----
    Mr. Stearns. What you are saying is maybe we could have a 
follow up after the NCAA has their report implemented, and 
maybe bring university presidents in to say how it is being 
done and----
    Mr. Rush. Right.
    Mr. Stearns. [continuing] see what the graduation rates 
are, and things--what new things have been----
    Mr. Rush. I would like to be a part of that.
    Mr. Stearns. Okay.
    Mr. Rush. I look forward to that.
    Mr. Stearns. All right. Let me thank all of you by saying 
that the hearing is completed, but we want to have unanimous 
consent to allow other members who aren't here to submit their 
opening statements. By unanimous consent, so ordered.
    I want to thank all of you for your patience in this late 
hearing.
    The subcommittee is adjourned.
    [Whereupon, at 5:30 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

           [April 1, 2002, Monday, USA TODAY, FINAL EDITION]

              March Madness Really About Frenzy For Money
                            By Tom McMillen

    Whether Maryland or Indiana is crowned champion of college 
basketball when the NCAA's wildly popular annual tournament ends 
tonight, once again the real winner will be the almighty dollar.
    The NCAA scored big: a $6-billion television contract, which 
finances the NCAA and participating athletic programs. In addition, 
universities ponied up another $4 billion for new facilities during the 
past few years, even though the majority of athletic programs lost 
money. And 40-plus coaches hit the jackpot with $1-million-plus annual 
salaries.
    Big-time college sports are eroding the integrity of our 
institutions of higher learning. Rule breaking is now the norm. More 
than 50% of our larger universities have been sanctioned by the NCAA 
for athletic-rule violations during the past decade. A student-athlete 
is an oxymoron at most institutions. Graduation is now the exception 
rather than the rule for the majority of football and basketball 
players.The influence of money on college sports is every bit as 
pernicious as the money grab in politics, but it doesn't have to be so. 
A Rhodes scholar and former runner-up for the Heisman Trophy, Justice 
Byron White, provided the pathway to reform 17 years ago.
    In 1984, the U.S. Supreme Court, in the landmark decision NCAA vs. 
Oklahoma, stripped the NCAA of its monopoly power over broadcasting 
rights to college athletic events. Justice White, in his dissent 
against the decision, supported the NCAA's right to monopoly power. 
White argued that the NCAA monopoly ``fosters the goal of amateurism by 
spreading revenues among various schools and reducing the financial 
incentives toward professionalism.''
    Justice White wisely understood that the NCAA's loss of monopoly 
broadcast power would lead to an escalating competition for money among 
schools. White feared that ``no single institution could confidently 
enforce its own standards, since it could not trust its competitors to 
do the same.''
    The result: Coaches and athletic administrators are constantly 
pressured to spend more; to recruit successfully so they can win; to 
win so they can fill stadiums and go on television and to the playoffs; 
to make more money so that new, state-of-the-art arenas can be built, 
salaries can be raised and so on.
    Despite years of reform efforts, it is clear that the NCAA cannot 
adequately reform itself. In fact, it is losing power to the 
conferences that are chasing their own mega-television contracts.
    Using as a model the 1978 Amateur Sports Act, which consolidated 
the governance of amateur sports under the direction of the U.S. 
Olympic Committee, the White House and Congress should consider passing 
legislation that overturns the 1984 Supreme Court decision and grants 
additional antitrust protection to the NCAA. Such legislation should 
include the following caveats, which would ensure that the NCAA would 
be more academic and less commercial in orientation:

 College and university presidents would be firmly in control of the 
        NCAA, including the scheduling, recruiting and all aspects of 
        the administration of sports.
 Monies would be distributed by the NCAA based upon academic values--
        such as gender equity, academic counseling, academic 
        performance, diversity of sports programs--not on commercial 
        values such as winning or losing. Under a radically revised 
        revenue-distribution program, a single NCAA men's basketball 
        tournament game victory would no longer generate $780,000 for 
        the winning team.
 Coaches' salaries would be aligned with university standards, and 
        coaches should receive job security.
 Student-athletes who sign a contractual grant-in-aid should be 
        prohibited from entering the pros until they are 20 years old.
 Student-athletes should be allowed to receive basic financial 
        stipends and earn additional reasonable outside income.
 The NBA and NFL should strongly support developmental leagues for 
        athletes who do not meet academic college standards.
    Right now, donations to athletic departments are tax deductible. So 
the U.S. Tax Code is subsidizing the professionalism of sports on 
college campuses. Under this proposal, the situation would change. If 
schools wanted to leave the NCAA, they would lose their tax-exempt 
status.
    Sports are an important part of our university life, serving as a 
unifying force for alumni and community; but we should not exaggerate 
their importance. Little suggests that athletic success increases 
donations to the overall university. By restoring the balance between 
academics and sports, we can preserve the noblest ideals of both.
    Failure to reform now will result in the continued escalation of 
the money madness in big-time college athletics, with further damage to 
higher education. Already our high schools are not immune from similar 
exploitation. We are the only nation in the world that mixes our 
schools with our sports, and as a result, we are compromising our 
institutions of learning.
    What major crisis will compel reform and halt the juggernaut? A 
gambling scandal or corruption trial?
    These proposed reforms will not end big-time college sports. 
Competition will still be keen. Athletes will play just as hard to win, 
no matter where the money goes. When the incentives are changed, 
schools will think twice about sending their athletes on long road 
trips, having them miss weeks of class. Maybe finally the athletic tail 
will no longer wag the academic dog. When we cheer the national 
champion of the future, wouldn't it be nice to cheer the team's 
outstanding graduation rates as well as their athletic prowess?
                                 ______
                                 
    Tom McMillen is a former co-chairman of the President's Council on 
Physical Fitness and Sports, U.S. Congressman, member of the Knight 
Commission and NBA player.

                  Copyright 2002 Gannett Company, Inc.

[GRAPHIC] [TIFF OMITTED] T3982.005

[GRAPHIC] [TIFF OMITTED] T3982.006

[GRAPHIC] [TIFF OMITTED] T3982.007

[GRAPHIC] [TIFF OMITTED] T3982.008

[GRAPHIC] [TIFF OMITTED] T3982.009

[GRAPHIC] [TIFF OMITTED] T3982.010

[GRAPHIC] [TIFF OMITTED] T3982.011

[GRAPHIC] [TIFF OMITTED] T3982.012

[GRAPHIC] [TIFF OMITTED] T3982.013

[GRAPHIC] [TIFF OMITTED] T3982.014

[GRAPHIC] [TIFF OMITTED] T3982.015

[GRAPHIC] [TIFF OMITTED] T3982.016

[GRAPHIC] [TIFF OMITTED] T3982.017

[GRAPHIC] [TIFF OMITTED] T3982.018

[GRAPHIC] [TIFF OMITTED] T3982.019

[GRAPHIC] [TIFF OMITTED] T3982.020

[GRAPHIC] [TIFF OMITTED] T3982.021

[GRAPHIC] [TIFF OMITTED] T3982.022

[GRAPHIC] [TIFF OMITTED] T3982.023

[GRAPHIC] [TIFF OMITTED] T3982.024

[GRAPHIC] [TIFF OMITTED] T3982.025

[GRAPHIC] [TIFF OMITTED] T3982.026

[GRAPHIC] [TIFF OMITTED] T3982.027

[GRAPHIC] [TIFF OMITTED] T3982.028

[GRAPHIC] [TIFF OMITTED] T3982.029

[GRAPHIC] [TIFF OMITTED] T3982.030

[GRAPHIC] [TIFF OMITTED] T3982.031

[GRAPHIC] [TIFF OMITTED] T3982.032

[GRAPHIC] [TIFF OMITTED] T3982.033

                                 <all>

</pre></body></html>
